<html>
<title> - ANSWERING THE CALL FOR HELP: THE IMPACT OF Y2K ON 911 AND LAW ENFORCEMENT?</title>
<body><pre>[Senate Hearing 106-186]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 106-186


 
                      ANSWERING THE CALL FOR HELP:
             THE IMPACT OF Y2K ON 911 AND LAW ENFORCEMENT?

=======================================================================

                                HEARING

                               before the

                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

THE IMPACT OF Y2K ON TWO SPECIFIC AREAS OF EMERGENCY PREPAREDNESS, 911 
                   SYSTEMS AND LOCAL LAW ENFORCEMENT

                               __________

                             APRIL 29, 1999

                               __________

                  Printed for the use of the Committee

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate
                               ----------

                      U.S. GOVERNMENT PRINTING OFFICE
 56-951 CC                   WASHINGTON : 1999
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office
                          Washington, DC 20402


                        SPECIAL COMMITTEE ON THE
                      YEAR 2000 TECHNOLOGY PROBLEM

         [Created by S. Res. 208, 105th Cong., 2d Sess. (1998)]

                   ROBERT F. BENNETT, Utah, Chairman

JON KYL, Arizona                     CHRISTOPHER J. DODD, Connecticut,
GORDON SMITH, Oregon                   Vice Chairman
SUSAN M. COLLINS, Maine              JOHN EDWARDS, North Carolina
TED STEVENS, Alaska, Ex Officio      DANIEL PATRICK MOYNIHAN, New York
                                     ROBERT C. BYRD, West Virginia, Ex 
                                     Officio

                    Robert Cresanti, Staff Director
              T.M. (Wilke) Green, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                                 ------                                

                     STATEMENT BY COMMITTEE MEMBERS

Robert F. Bennett, a U.S. Senator from Utah, Chairman, Special 
  Committee on the Year 2000 Technology Problem..................     1

                    CHRONOLOGICAL ORDER OF WITNESSES

Jack L. Brock, Jr., Director, Governmentwide and Defense 
  Information Systems, Accounting and Information Management 
  Division, United States General Accounting Office..............     3
Michael K. Powell, Commissioner, Federal Communications 
  Commission.....................................................     8
Stephen R. Colgate, Assistant Attorney General, Justice 
  Management Division, Department of Justice.....................    13
Harlin R. McEwen, Deputy Assistant Director, Criminal Justice 
  Information Services Division, Federal Bureau of Investigation.    15
John S. Karangekis, Chief of Police, Wethersfield Police 
  Department, Wethersfield, Connecticut..........................    17
James N. Brown, Chief of Police, Hudson Police Department, 
  Hudson, Ohio...................................................    19

              ALPHABETICAL LISTING AND MATERIAL SUBMITTED

Bennett, Hon. Robert F.:
    Opening statement............................................     1
    Prepared statement...........................................    25
Brock, Jack L.:
    Statement....................................................     3
    Prepared statement...........................................    26
    Responses to questions submitted by Chairman Bennett.........    32
Brown, James N.:
    Statement....................................................    19
    Prepared statement...........................................    35
    Responses to questions submitted by Chairman Bennett.........    37
Colgate, Stephen R.:
    Statement....................................................    13
    Prepared statement...........................................    39
    Responses to questions submitted by Chairman Bennett.........    43
Dodd, Hon. Christopher J.: Prepared statement....................    44
Karangekis, John S.:
    Statement....................................................    17
    Prepared statement...........................................    45
McEwen, Harlin R.:
    Statement....................................................    15
    Prepared statement...........................................    46
    Responses to questions submitted by Chairman Bennett.........    47
Powell, Michael K.:
    Statement....................................................     8
    Prepared statement...........................................    49
    Responses to questions submitted by Chairman Bennett.........    55



     ANSWERING THE CALL FOR HELP: THE IMPACT OF Y2K ON 911 AND LAW 
                              ENFORCEMENT

                              ----------                              


                        THURSDAY, APRIL 29, 1999

                               U.S. Senate,
                 Special Committee on the Year 2000
                                        Technology Problem,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-192, Dirksen Senate Office Building, Hon. Robert F. 
Bennett (chairman of the committee), presiding.
    Present: Senator Bennett.

  OPENING STATEMENT OF HON. ROBERT F. BENNETT, A U.S. SENATOR 
    FROM UTAH, CHAIRMAN, SPECIAL COMMITTEE ON THE YEAR 2000 
                       TECHNOLOGY PROBLEM

    Chairman Bennett. Good morning. The committee will come to 
order.
    Our hearing today marks the second time in 6 months that 
this committee will address the important topic of Y2K 
emergency preparedness. On October 2, 1998, we focused on 
emergency management, and that hearing included testimony from 
FEMA and the National Guard Association, the National Emergency 
Managers Association, and the National Governors Association.
    Today, we will concentrate on the impact of Y2K on two 
specific areas of emergency preparedness, 911 systems and local 
law enforcement. We touched somewhat on those issues during the 
October 2 hearing, but today, we will address them with a more 
focused concentration and a heightened sense of concern.
    Our concern about these two areas is heightened for two 
reasons. In a report released last month, the Network 
Reliability Interoperability Council [NRIC]--we always have to 
use acronyms in Washington--estimated that only 10 percent of 
over 7,000 public safety answering points, or PSAP's, where 911 
calls are processed, are prepared for Y2K. Let me repeat that. 
A council that is focusing on this issue says that only 10 
percent of the public service answering points where 911 calls 
are processed were prepared for Y2K.
    In an updated report received from the FCC yesterday, this 
committee was informed that the number might now be as high as 
35 percent. Thirty-five percent is a whole lot better than ten, 
but it is still not comforting enough for us to cancel the 
hearing. It should be noted that this refers only to the 
equipment provided to the PSAP's by the telephone companies.
    There is still a large amount of equipment and information 
systems utilized within the PSAP's about which we know very 
little. An ongoing survey being conducted by the U.S. Fire 
Administration about overall readiness of 4,300 of these PSAP's 
indicates that overall readiness is about 17 percent. Survey 
results indicate some strong concerns about funding on the part 
of the PSAP's. In other words, they say, well, we think we know 
what to do, but we do not have any money so we probably are not 
going to do anything.
    Now, put this in perspective. In the United States, there 
are approximately 300,000 calls for emergency assistance made 
via the 911 system every day. That does not count the 
additional 86,000 911 calls made from cellular phones every 
day. That is over 110 million 911 calls per year. If the 
problems within the system supporting the answering points that 
handle these calls, the PSAP's, are not properly addressed, the 
systems will fail, leading to degradation in the processing of 
911 calls.
    Let me stress the word degradation does not mean 
elimination. The 911 calls will still be answered. Someone will 
still try to handle the emergency. But they will not have 
available to them all of the computer-assisted support that is 
there right now, and so the whole system will be degraded and 
there will obviously be an impact. But it is not a case of 
either all on or all off.
    I would like to announce that Senator Dodd and I are 
jointly sending a letter to Commissioner Michael Powell, who is 
with us today and will be on our first panel, from the FCC, and 
Administrator Carrye Brown of the U.S. Fire Administration 
asking that they work together to identify those PSAP's that 
are not yet prepared and those who have not yet responded to 
the Fire Administration's survey. We have also asked that they 
provide this information to the appropriate 911 commissions, 
State Y2K coordinators, and other appropriate regulatory bodies 
governing those PSAP's.
    We hope that this will help the States and local 
jurisdictions identify potential problems so that help can be 
provided to those that need it. There may be some people out 
there who have a problem but do not realize it, even at this 
late date and after all of the work that has been done to try 
to publicize this. The supervisor of one PSAP told the 
committee staff that the radio system in his dispatch center 
required a $60,000 patch and without this patch they would have 
been unable to communicate with emergency service units at all.
    Now, in regard to local law enforcement, the committee has 
noted the absence of any overall assessment of the Y2K status 
of our nation's local law enforcement agencies. At the Federal 
level, we have captured much information about Federal law 
enforcement agencies within the Justice Department, Treasury 
Department, and their subsidiary agencies, FBI, DEA, Customs, 
ATF, Secret Service, and so on. This information comes to the 
committee and to the country through the quarterly OMB reports 
and the work of the inspector general offices of these 
departments.
    The news about these agencies is very good. If not already 
completely prepared, they are well on their way to being so and 
we have every confidence they will be able to meet their 
challenge by January 1, 2000. However, we are concerned about 
the lack of information on that segment of law enforcement that 
our citizens rely on most in their everyday lives, and that is 
the local law enforcement sector, and this means approximately 
17,000 police and sheriff's departments across the country.
    We do not want to overstate the problem or needlessly set 
up public panic. We have no reason to believe that our 
emergency services are not taking this problem very seriously 
and working to prepare for Y2K, but there are vulnerable, 
highly vulnerable areas in the 911 sector as well as the local 
law enforcement sector and we are concerned about the lack of 
assessments, the lack of information, that leaves us without 
any hard data. That is why we are holding the hearing today.
    Our lead witness on the first panel will be Mr. Jack Brock, 
who is Director of Information Management Issues at GAO. Those 
who follow this committee know that we depend heavily on GAO 
and Mr. Brock is here often and members of his agency are here 
often, either in the hearing or working with our staff. Mr. 
Brock, once again, on behalf of the entire Congress, we thank 
the GAO for your efforts and your diligence on following 
through on this. He will explain to us how the 911 systems work 
and discuss GAO's examination of these systems and its review 
of the Justice Department and law enforcement working groups' 
outreach efforts.
    He will be joined in the first panel by Commissioner 
Michael Powell of the Federal Communications Commission. 
Commissioner Powell is also a familiar face to this committee 
and to this issue. I have seen him on a number of speaking 
assignments where I have been, and he has, likewise, been very 
diligent in following this through. So I think between the two 
of them, we are going to get a frank and direct response to the 
challenge that we face. He will explain where the problems in 
the system may exist and speak to us about what may be the big 
problem from our point of view, the lack of regulatory 
authority over PSAP's.
    We will proceed with that first panel and start with you, 
Mr. Brock.

 STATEMENT OF JACK L. BROCK, JR., DIRECTOR, GOVERNMENTWIDE AND 
    DEFENSE INFORMATION SYSTEMS, ACCOUNTING AND INFORMATION 
  MANAGEMENT DIVISION, UNITED STATES GENERAL ACCOUNTING OFFICE

    Mr. Brock. Thank you very much, Mr. Chairman. I am pleased 
to be here today. I am also pleased to be on a panel with 
Commissioner Powell. I think that Commissioner Powell has done 
a good job on leading the Communications Sector Work Group, and 
as a result of his and the Sector Work Group, there is a lot 
more known about the telecommunications system than we knew a 
year or so ago.
    I would like to briefly summarize my statement. You asked 
us to comment on a couple of things. First of all, our 
awareness of the status of 911 systems and State and local law 
enforcement entities. To that point, unlike Federal agencies, 
we have no direct audit authority there, so much of our 
information that we are discussing today has come from surveys 
and material that are gathered by national associations, that 
are gathered by the working groups on the President's 
Conversion Council.
    Second, you asked us to comment on the efforts of the 
President's Council on Year 2000 Conversion and specifically to 
comment on the outreach efforts of the Department of Justice.
    I would like to address 911 first. I am going to give you a 
very simplified explanation of what happens to a 911 call. 
There is a chart up behind you, sir. It is also in our 
statement for people who cannot read it well. But, basically, 
we are talking about an enhanced 911 calling process. FCC has 
told us that about 90 percent of the country is covered by 911 
services. Of that 90 percent, 95 percent of those services are 
enhanced, and my description will be a brief overview of an 
enhanced system.
    The first thing, if you notice the telephone up there, the 
most critical step to making the 911 call is, in fact, picking 
up the phone and getting a dial tone. If the telephone does not 
work, then the call stops right there. Fortunately, I think 
information that has been made available to us by the 
Communications Working Group, through their efforts working 
with NRIC and in turn working with the Telco Year 2000 Forum, 
we have increasing confidence that there will be dial tone.
    So we are pretty sure you are going to pick up the phone 
and you are going to get a dial tone. You are going to go 
through a switch. That is the next thing. That is going to 
route you to the appropriate public safety answering point. I 
will just refer to that from now on as PSAP.
    When it goes to the PSAP, it is going to go through their 
PBX system. If the PBX system does not work, and this is not 
owned by the telephone company, this is owned by the PSAP, and 
one of the things that FCC will tell you, that the biggest 
worry now in communications is not the public switch network, 
it is the customer premise equipment. They have no control over 
what you have on your location. That is up to each individual 
jurisdiction or private party or whatever to make sure that is 
compliant.
    When it goes through there, it is attached with what is 
called an automatic number identification [ANI], and that comes 
from the phone company and it goes into a controller, a phone 
number controller that is maintained by the PSAP. At the same 
time, it goes back out to the telephone company and at the same 
time goes to the operator.
    The telephone company then supplies from what is called an 
automatic location index [ALI], the address. So the operator is 
now getting, over there on the call taker, is now getting from 
the phone up on their screen the location and the identifier 
for the phone, and this is only on wire line equipment. If you 
are making a cell phone call, none of that is coming in.
    After the operator takes the call, they typically would 
verify the information and it would be automatically recorded 
and time stamped. Then the operator would code the call, enter 
it into a computer-aided dispatch system, and notify the 
appropriate response unit. The dispatch system would do such 
things as----
    Chairman Bennett. And that is not on the chart?
    Mr. Brock. That is not on the chart. That would go outside 
the chart. But when it goes into the computer-aided dispatch 
system [CAD], all sorts, depending on the jurisdiction, all 
sorts of decisions are made for the jurisdiction. What is the 
most appropriate unit to respond? Does the address they are 
responding to have situations that might endanger law 
enforcement officials or would it contain explosives that might 
endanger fire officials or any certain amount of information.
    If these things do not work, if the location index is not 
compliant, if the number system does not work, if the CAD 
system does not work, you essentially revert back to the old 
basic 911 system, where you get the dial tone, you call in, you 
reach an operator. This information has to be taken down 
manually, and then the dispatch is no longer automatic, it is 
manual and it takes time.
    The two PSAP's that we visited locally both said if their 
systems did not work that there would be a definite degradation 
of service. There would be an increased waiting time. And 
depending on the volume of calls, it could affect the safety 
and well-being of certain individuals.
    Chairman Bennett. Let me see if I understand what you are 
saying. The phone call would come in off the phone there and go 
directly to the call taker without any of the other information 
along the way, is that correct?
    Mr. Brock. Typically, yes. It would be routed through the 
telephone switch, the tandem switch that is at the telephone 
office, to the PSAP. Some of the other features, if they did 
not work, perhaps would not supply the location or the phone 
number. That would have to be manually input by the operator, 
and that happens on cell calls right now. That is typically not 
provided on cell calls, so they are well-equipped to deal with 
that. The key thing----
    Chairman Bennett. It would just slow everything down.
    Mr. Brock. It would slow things down.
    Chairman Bennett. OK.
    Mr. Brock. The key thing would be the automatic dispatch 
equipment. That really makes the whole system more efficient in 
making sure that you send the right unit out there and that 
that unit has appropriate information on the address they are 
going to if it is, in fact, in the system.
    Chairman Bennett. OK.
    Mr. Brock. Now, the other thing that we were told when we 
visited the two PSAP's, that if you have not started 
remediation of your equipment, it is probably too late, that 
the lead time for bringing in one of these systems, training 
your personnel, and getting it up and operational is greater 
than the amount of time that is available. So if you have not 
done much now, it is time to go to contingency planning and it 
may not be possible to bring in the necessary fixes to the 
system, depending on how extensive they are.
    Chairman Bennett. Do you have any sense of how many people 
are in that condition, that have not done anything and for whom 
it is too late?
    Mr. Brock. Well, this gets back to the point of our 
statement. No. We do not have a good sense of that. While, as I 
said, we have increasing confidence in what is going on in the 
public switch network, that confidence resides in the fact that 
a lot of people are reporting, that appropriate organizations, 
such as the Telco Year 2000 Forum are doing testing, and that 
you have information that remediated systems will work. You 
still have to complete the remediation.
    We have much less information on PSAP's. The information 
that we have that has been supplied back to FEMA is on a very, 
very small sample. Only 18 percent, as you mentioned, of the 
respondents replied back. Sixteen percent said that they were 
ready now. You had some updated information that was not 
available to us that indicates that 35 percent say they are 
ready.
    There are a couple of issues here. This is self-reported 
data. We do not know the extent that testing has been done and 
we are not sure of the status. So there is a lack of awareness, 
a general lack of awareness of where these PSAP's stand.
    FEMA is now working to update their survey. They are going 
to be doing telephone surveys now. They are going to try to get 
a much more vigorous response so the assessment data will be 
more complete.
    Chairman Bennett. When it comes in, it will all be self-
reported?
    Mr. Brock. It will all be self-reported. We do know from 
the two local jurisdictions that we went to that they have done 
extensive tests. For example, on April 14, Fairfax County did 
do a complete test of their system, of the equipment that they 
own, and they have been working over a year and a half to 
remedy the situation, and it worked. They had a successful 
test.
    Chairman Bennett. Have you done any examination in the 
District?
    Mr. Brock. We are doing District Y2K work. As I reported a 
couple of months ago, the District is far behind. We did not 
specifically look at their 911 system, but all of their systems 
are far behind and they are not scheduled to begin testing 
until late in the year on most of their key systems.
    We have evidence here in the local community that 
Montgomery County, Fairfax County, Arlington, places like that 
have made good progress. The District's progress has not been 
as good, generally.
    In terms of outreach, we found, because of the interaction 
at the local level with the PSAP's that FEMA has some 
responsibility for, in its outreach committee, the emergency 
services outreach, and then, of course, the Communications 
Working Group that SEC and GSA co-chair, that there has been a 
fair amount of outreach. FEMA has had a number of events all 
across the country. They have been targeting PSAP's. 
Associations that are connected with PSAP, as well as the 
telephone companies, have also been very active in contacting 
PSAP's to discuss their Y2K readiness. So there has been a fair 
amount of outreach. That outreach has not always generated the 
kind of information that would allow us today to say, this is 
the status. We do not know.
    And again, echoing your remarks, Mr. Chairman, I do not 
want to alarm people. We believe that, at a minimum, basic 911 
service will work, but there could be a degradation of service 
if remediation action is not directed.
    You also asked us to look at State and local law 
enforcement agencies, and we have almost no information there. 
I would like to read a quote from the first sector assessment 
of the President's Conversion Council, where they reported 
that, ``Based on informal assessment information, there is a 
high level of awareness of the problem among non-Federal 
police/law enforcement entities. State police/law enforcement 
entities and departments in larger metropolitan areas are 
making good progress. However, most departments at the county 
and municipality level lack the sophistication to assess the 
Y2K readiness of their service providers. These departments do 
not have their own dedicated IT resources. They do not have 
money or professional staffing and are instead dependent on the 
IT departments of the county, city, or municipality of which 
they are a part. Dedicated radio communications and dispatch 
systems are a concern for all public law enforcement 
organizations and the working group is encouraging departments 
to focus on contingency planning in this area.'' So the 
assessments are basically informal and there is not a lot of 
direct information on the status of law enforcement entities, 
and there are about 17,000 of these across the country. Of 
course, some States, some jurisdictions, have done very 
detailed assessments, so there is information in pockets, but 
there is not a good source of national information.
    In fact, because of the importance of 911 systems and law 
enforcement systems throughout the country, this was exactly 
one of the reasons that the Y2K Conversion Council was created, 
that in areas that were of immense national concern but where 
there may not be direct Federal intervention, it was thought 
that the Conversion Council, in conjunction with associations, 
civic groups, et cetera, could work together and 
collaboratively to determine the status of various key sectors 
and then recommend remedial action.
    We recommended last April that the Conversion Council begin 
to do assessments to determine the status of their relevant 
sectors. In October, the Council did send out guidance to all 
of the working groups to develop such information. Information 
was developed on PSAP's. To date, no information has been 
developed by the working group, except informal stuff, on law 
enforcement. We understand last week that the law enforcement 
sector has agreed to do a survey in conjunction with FEMA to 
develop some initial assessment information, and this should be 
useful once that is done.
    One of the key points, though, I would like to make, Mr. 
Chairman, in closing, that just gathering assessment 
information is not enough. You have to do something with it. 
So, for example, depending on the status of that information 
and what it indicates, you have some options ranging from 
wringing your hands and saying, ``We are in a bad situation,'' 
to taking some decisive action, and I think that is what is 
going to be incumbent upon the various sectors as this 
information rolls in.
    Again, depending on what the information says, you are 
going to need to be a lot more specific in terms of what sort 
of action you can take that will be effective, because the 
types of services that we are talking about at the local level 
are really the services that are going to impact citizens most 
often on January 1.
    I mean, a lot of the Federal systems that we are looking at 
are critically important to the nation, but midnight Friday 
night and into Saturday morning, those are not going to be the 
systems that affect you and I in our house. I am going to turn 
on my light switch, I am going to pick up my phone, I am going 
to see if my power is on, my water turns on. These are the 
kinds of things that we are going to be looking at, and if 
these services do not work, there will be an impact at the 
local community level.
    Again, not to be an alarmist, we do not know the status, 
and that is the concern. If the status is known, then there can 
be decisions made on the appropriate action that should be 
taken.
    That concludes my statement, Mr. Chairman.
    Chairman Bennett. Thank you very much. I appreciate it and 
appreciate your patience in allowing me to question you back 
and forth and thus interrupt you. I think that helps us 
understand the scope of the problem.
    [The prepared statement of Mr. Brock can be found in the 
appendix.]
    Chairman Bennett. Commissioner Powell.

     STATEMENT OF MICHAEL K. POWELL, COMMISSIONER, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Powell. Thank you, Senator Bennett. As always, it is a 
pleasure to be here. If I could just take a moment to echo the 
sentiments that you expressed in terms of the strong working 
relationship we have had with the committee, we have enjoyed it 
and I think we have made some substantial progress.
    I would also like to thank GAO, who have worked 
increasingly with us on this pressing national problem, 
particularly with respect to public safety, which, of course, 
in many cases Y2K failings or shortcomings will range from 
humorous to bothersome. In this case, it could cost lives, and 
so that places an exclamation mark on the urgency of these 
efforts.
    I also wanted to state unequivocally we would be more than 
happy to accept your suggestion and invitation to work with the 
Fire Administration to advance our outreach efforts and we will 
start on that immediately as an extension of things we are 
doing. I think it is a nice complement to something we have 
been trying to emphasize already, which is we have been 
imploring State regulatory commissions, particularly through 
the National Association of Regulatory Utility Commissioners, 
to make PSAP's and public safety a central component of their 
Y2K efforts because of their localized responsibilities and 
their ability to more easily canvas. They have regularly 
committed to me that they would be willing to do that and I 
think that we can use that effort as one vehicle to advance the 
goals expressed in your letter, so we will be working on that 
immediately.
    I also would like to take a second to talk about the 911 
system. I think Jack has done a terrific job in explaining how 
basically it works. I would point out, just for point of 
emphasis, that one of the things that makes this problem 
difficult is there is no national unified emergency system. 
Even within the category of enhanced services, there are any 
number of variations on the basic model.
    Sometimes a local telephone company is in full control of 
the location data base. Sometimes that data base is separately 
provided and resides within the control of the PSAP itself. 
Sometimes there is no such data base at all. Sometimes it is 
supplemented with computer-assisted dispatch technologies that 
do everything from keep track of the closest fire hydrant to 
keep track of whether that house has called before, whether 
there are toxic materials in the area, et cetera. So there are 
any number of variations on that and we need to keep that in 
mind.
    I would just divert for a second to supplement something 
Jack said that you may not be aware of. In the cellular phone 
context, there is a regulatory proceeding underway to bring 
enhanced 911 functionality like was described here to wireless. 
As of April 1 of, I think, 1998, cellular carriers were 
required to implement phase one of that enhanced 911 service, 
which means cellular calls should be able to transmit 
information about at least the cell from which the call came 
from and the caller's call-back number. That is being deployed, 
and in some instances even been tested, by the Telco Year 2000 
Forum and ATIS and fixes that are necessary have been developed 
and are beginning to be deployed.
    Phase two of 911 for wireless will come too late for this 
problem, but by 2001, we hope that technology will allow you to 
get the location within 125 meters of the actual phone itself. 
So I just wanted to make you aware of those efforts.
    Last, I wanted to make you aware that there is a movement 
in the Congress to nationalize 911 as the national emergency 
number, as I think Jack sort of alluded to, that 911 right now 
is somewhat discretionary within States and localities and not 
everyone actually uses 911 as their emergency calling system. 
Indeed, I caution consumers with respect to wireless services, 
rarely is 911 actually the number that you will use to get an 
emergency service and you would be well advised to check with 
your carrier.
    For example, AT&T's wireless mobile service, which I 
discovered recently, if you dial 911, you will get nothing, but 
if you dial 9 by itself and leave it alone, you will get 
emergency services, and I would not have known that, and did 
indeed when I was trying to use it, until I had spoken with 
them, so another caution.
    I would also like to describe very briefly the 911 system 
and use slightly different components simplistically to give 
you an illustration of both where I think the problems and 
challenges are, and second, where I think we may have venues 
for attacking this problem.
    I would break the emergency communications system down into 
three pieces, and I will borrow Jack's chart, with his 
indulgence, to make these points. There is the first phase, 
which I consider to be just 911 call delivery, getting the call 
from the phone to the PSAP. The second area is call processing 
at the public safety answering point. Third is the wireless 
dispatch component used to deploy emergency services to the 
location. And fourth is the emergency alert system, the use of 
broadcasting properties and cable systems to alert the public 
to national emergency, which are frequently used in times of 
weather emergency or other local crises.
    With respect to call delivery, I think as you rightly 
stated in your opening statement, Mr. Chairman, that is largely 
within the control of the telecommunications companies. The 
public switched telephone network and up through the E911 
tandem are things that the phone companies take direct and 
immediate responsibility for, and when we report on the general 
positive progress in the telecommunications industry with 
respect to that network, I think as Jack alluded to, as well, 
we would include those components.
    So we have, again, as we used with the telephone system 
generally, guarded confidence about that dimension of the 
system. In fact, in the telecommunications industry tests that 
were conducted this spring by the industry, they included 
testing of functionalities of the 911 specific component.
    With respect to the second dimension, this call processing 
area, that is, to be simple, a host of computers that do any 
number of variations on data bases, lining up information 
associated with the telephone number. We tend to put most of 
that information in the category of customer permit equipment. 
Again, as Jack mentioned, this is stuff that State and local 
governments buy and own and make choices about how 
sophisticated or unsophisticated it is. They are provided by 
separate vendors in most cases. Indeed, the two leading 
manufacturers, which I believe are Positron and Plant 
Equipment, Incorporated, produce that equipment. So that 
problem is the classic problem of CPE, trying to get individual 
institutions to address those problems and get with their 
vendors to remediate the situation.
    We have some confidence that, with respect to that 
equipment, fixes have been developed and are available. I think 
that the challenge is going to be largely in deployment.
    Also, I wanted to highlight another venue we have for 
potentially attacking this problem, which we have already made 
some efforts to utilize, and that is that the telephone 
companies. Because of historical legacy, telephone companies 
often have service and maintenance contracts with public safety 
answering points for not only the telephone side but some 
components of the call processing within the PSAP. In fact, 
what NRIC did was attempt to survey its members, that is, the 
eight largest telephone companies, and say, hey, look at your 
service contracts and tell back to us what efforts you have 
engaged in remediation because you are one of the parties that 
they are likely to hire to do this.
    They come up with a number somewhere in the neighborhood of 
7,000 PSAP's, 6,739, and I would point out the discrepancy in 
the numbers FEMA reports and we report is explainable by the 
fact that FEMA's numbers come from primary PSAP's and often 
localities will have secondary PSAP's and our numbers probably 
capture those secondary PSAP's, as well. These are institutions 
that the phone companies have contracts with.
    That is where you get the reported number of 35 percent 
remediation, from the phone companies who are reporting on 
their efforts pursuant to their contracts for that equipment. 
And again, as you correctly pointed out, that probably only 
gets you sort of midstream into that processing component and 
there are probably other components of that processing 
component and then the dispatch side which are not captured by 
that number.
    That takes me to the dispatch side. Once you get past the 
PSAP processing, it is time to deploy a fire truck, time to 
deploy an ambulance. There is wireless communications equipment 
utilized for that purpose. Two major pieces there, one in which 
the FCC has a great deal of control over, which is frequencies 
and the allocation of frequencies and management of those 
licenses and the people who have them as licensees. But, of 
course, the airwaves are the airwaves. As far as I know, they 
do not have a Y2K problem yet.
    But the central problem is probably in the equipment that 
is being utilized, and we have done lots of assessment with 
some of the basic kinds of wireless equipment in our normal 
course of work with wireless manufacturers. The manufacturers 
report relatively positive news about wireless equipment. Most 
of it being used by public safety authorities do not contain 
the more sophisticated date-sensitive information and are 
likely going to be capable of transmitting basically a 
telephone call or a dispatch call. But, nonetheless, that has 
to be checked and we do not really have any tangible 
information with respect to it.
    Finally, a part that Jack did not refer to which does come 
under our jurisdiction, as well, is the Emergency Alert System. 
You have seen it. It used to be referred to as the Emergency 
Broadcasting System and you got that annoying beep when they 
tested it. We do not use that anymore. There are now more 
sophisticated technologies to scroll information across 
television screens and audio alerts over the radio. Cable 
companies for the first time are required by law to provide 
these warnings, as well.
    Because these systems are very new--we have required these 
only over the last couple of years--Y2K has been a prominent 
concern in the deployment of that equipment from the get-go and 
we are pretty confident that the Emergency Alert System is 
likely to function and function well, and we are also confident 
that it has a lot of redundancies. That is, in any given 
neighborhood, like our own, there are multiple television and 
radio stations and if one or two of them were to have a 
failure, you are likely not to be fatally excluded from news 
and information.
    I will stop there and am happy to take any questions you 
might have.
    Chairman Bennett. Thank you very much.
    [The prepared statement of Mr. Powell can be found in the 
appendix.]
    Chairman Bennett. Between the two of you, I think you have 
covered this very well. Let me just emphasize again, so that I 
understand, if there is a failure, the call will still go 
through?
    Mr. Brock. If there is a failure on the----
    Chairman Bennett. That is assuming that you get a dial 
tone.
    Mr. Brock. Yes. In most cases, we believe the call will go 
through. In some cases, if the whole phone is replaced by a 
computer, the call may not go through in the PSAP, but we do 
not believe there are that many systems that use that.
    Chairman Bennett. And if it goes through, it will be 
handled the way a cellular call is handled now?
    Mr. Powell. Probably, in all likelihood. Before the PSAP 
system was created, I think the late 1960's or early 1970's, 
essentially what you have is a trained operator whose purpose 
it was to keep you on the phone and collect that information 
and then be simultaneously dispatching that information.
    I suspect if there were a collapse of the automated 
assistance of that system, you would essentially revert back to 
sort of pre-PSAP era in which the training and the abilities of 
your operator become much more critical and central.
    The second backup which we should allude to is PSAP's were 
designed for efficiency. There are numbers to call the police 
department directly. There are numbers to call your fire 
station directly. In the contingency phase, we need to make 
sure that one thing we consider is making sure the public knows 
that there are alternate ways to call for emergency services, 
should it have trouble with basic 911.
    Chairman Bennett. You have come back to one of my recurring 
themes as people say, well, what should the average America do, 
and I think the answer you are giving here is that the average 
American should first call his local official and do a little 
analysis by himself as to how far they are along on the 
readiness scale, and then, second, record these emergency 
numbers so that if the 911 system gets jammed, and that is what 
I see happening from your testimony.
    You have all of these calls coming in and they end up with 
an operator and pretty soon you are on hold or you have busy 
signals, the kinds of things that were the plague of 911 in the 
early days that have been eliminated by the PSAP come back, 
only they come back with a vengeance now because the traffic is 
much higher than it was in the early days of 911.
    So as a personal contingency plan in my own household, I 
need to get the number of the local police station directly so 
that if I get hung up on 911, I can still make that call and 
still get through.
    Mr. Powell. And I would just emphasize another point which 
we alluded to in our consumer tips in the telecom report that 
we issued a few months ago. With regard to 911 services, time 
is more critical than anything, and I would urge consumers who 
often wait until the very last second before they decide 
someone is hurt enough or ill enough to make a call, that 
understanding that it could take longer than it might normally 
take, I think at the first sign of trouble, one would be well 
advised to get on the telephone and accommodate for that 
potential lag in time.
    Chairman Bennett. That is a good piece of additional 
counsel and information. We thank you both and appreciate your 
testimony and your effort in this area.
    Mr. Powell. Thank you.
    Mr. Brock. Thank you.
    Chairman Bennett. We will go to our second panel now. On 
this panel, we welcome Mr. Stephen R. Colgate, who is the 
Assistant Attorney General from the Department of Justice. He 
coordinates the President's Working Group on Law Enforcement. 
We look forward, Mr. Colgate, to your testimony about the 
Justice Department and the working group's outreach efforts.
    Mr. Colgate is joined by Mr. Harlin McEwen, who is the 
Deputy Assistant Director of the FBI. He will testify about 
those FBI information systems which support State and local law 
enforcement agencies. He is also a former chief of police, 
which I think will give us an opportunity to draw on that 
expertise.
    Finally, we have two witnesses from the front line of law 
enforcement, Chief John S. Karangekis of the Wethersfield, 
Connecticut, Police Department. He serves as President of the 
Connecticut Police Chiefs Association. He will be joined by 
Chief Jim Brown of the Hudson, Ohio, Police Department, who is 
President of the Summit County, Ohio, Police Chiefs 
Association.
    From the Department of Justice to the FBI to two chiefs of 
police who are on the front line every day, we appreciate your 
being here. Mr. Colgate, we will start with you.

    STEPHEN R. COLGATE, ASSISTANT ATTORNEY GENERAL, JUSTICE 
           MANAGEMENT DIVISION, DEPARTMENT OF JUSTICE

    Mr. Colgate. Thank you, Mr. Chairman. My name is Steve 
Colgate and I serve as the Assistant Attorney General for 
Administration and also the Department's Chief Information 
Officer. I am pleased to share with you some observations about 
Y2K readiness in the State and local law enforcement community.
    I welcome the participation at this hearing of the FBI's 
Harlin McEwen. As you have pointed out, Harlin was a former 
local law enforcement officer and is a key player in the 
development and deployment of the Department's Criminal Justice 
Information System.
    Your invitation identified five subject areas, and I see 
them from two separate viewpoints. First, I have the viewpoint 
of my own role in the management of the Department of Justice. 
Then I have the viewpoint of the working group that I lead 
under the President's Council for Y2K Conversion. That working 
group has a very broad scope that involves more than policy and 
highway patrol agencies and includes law enforcement in the 
context of such Federal regulatory activities as clean water.
    First, from the viewpoint of the Department of Justice, the 
Department has a mutually dependent relationship with State and 
local law enforcement agencies. We share concerns for smooth 
operational business continuity at the year's end. However, 
because those relationships are so numerous and diverse and so 
many of the information interactions are so sophisticated, it 
is proper for DOJ's Y2K readiness responsibility to be in the 
Department's bureaus and divisions in all of our components. 
They are responsible for all aspects of their missions, 
including addressing mission partner readiness. I am pleased to 
tell you they have been working very hard for a great many 
months and are in a very good position to make an uneventful 
transition at this year's end.
    We are also emphasizing continuity of operations planning, 
in which our components are layering and laying the groundwork 
to deal with any business process anomalies that might occur 
over the new year period and in the days and weeks to follow. 
As of April 28, 1998, 93 percent of the Department's mission 
critical systems are compliant, and I am very pleased with 
that.
    Your invitation addressed specifically the Y2K readiness of 
State and local law enforcement. I see this as having two 
principal dimensions. One is the awareness relative to their 
mission partner interactions with the Department. The other is 
awareness relative to the activities that are purely and 
entirely State and local, not involving the mission 
interactions with the Federal Government.
    DOJ strategy has been to concentrate on the operations in 
which we are a party. In so doing, we have encouraged our State 
and local mission partners to follow our lead and look to all 
of their operations, including those that do not involve the 
Federal Government. Over the past 10 months, the Department has 
undertaken a Y2K readiness awareness with its mission partners 
in all areas, especially in law enforcement. That campaign has 
included the Attorney General herself, and the FBI has have 
been working hard at communicating Y2K awareness to all of its 
partners, which are all the 50 States and territories.
    My feedback indicates that State and local officials know 
well the two things that are of paramount importance to the 
Department, namely, that the Department is doing its own Y2K 
readiness so that States can depend on our systems and the 
States must do certain things to ensure their end of the 
partnership, as well. Those include data exchanges as part of 
information system operations and are being tested as a part of 
the Department's overall Y2K readiness validation and 
verification process. In that context, I believe that it is 
important to bear in mind that our principal law enforcement 
interfaces are with State and local officials on whom we rely 
for reaching local officials in their many small jurisdictions.
    From my second viewpoint as a leader of the Working Group 
for Police, Public Safety, Law Enforcement, and Criminal 
Justice of the President's Y2K Conversion Council, I have an 
interest in the unusually wide spectrum of entities that 
include not only those that are part of the State government 
but those that exist at the county, city, and township levels.
    In the case of just police, the entities number in the tens 
of thousands because almost all the small villages and towns, 
like their big city brethren, have their own police 
departments. I believe that smaller police departments are very 
numerous and they tend to rely greatly on other local 
government entities for their information technology sources 
and support.
    For all of our working group participants other than DOJ, I 
believe the Department of Transportation's Federal Highway 
Administration has the most potential impact on State and 
local, simply because of the issue of traffic control, and I 
think that they have done a good job in identifying the issues 
on traffic control.
    I would like to conclude with some general observations. I 
have some concerns with many small rural departments that do 
not have their own expertise and rely on the infrastructure 
support from other units of government. Because of this 
concern, the President's Y2K Council, under the leadership of 
the Domestic Interagency Working Group, will sponsor a sector 
roundtable session with both the Law Enforcement Working Group 
and the Public Safety Emergency Management Working Group to 
discuss contingency planning and readiness.
    In conclusion, I believe that the Department of Justice 
systems are in good shape and will meet the challenge of Y2K. 
There have been outreach efforts with our State and local 
partners and my informal discussions with some of the law 
enforcement associations indicate a good general overall 
awareness. However, more needs to be done, and to that extent, 
we will be working with the Federal Emergency Management Agency 
and the Public Safety Emergency Management Working Group to 
undertake a more thorough assessment of State and local 
readiness, and we will, of course, keep the committee fully 
apprised of our efforts.
    Thank you for this opportunity.
    Chairman Bennett. Thank you very much.
    [The prepared statement of Mr. Colgate can be found in the 
appendix.]
    Chairman Bennett. Mr. McEwen.

   STATEMENT OF HARLIN R. McEWEN, DEPUTY ASSISTANT DIRECTOR, 
CRIMINAL JUSTICE INFORMATION SERVICES DIVISION, FEDERAL BUREAU 
                        OF INVESTIGATION

    Mr. McEwen. Thank you, Mr. Chairman, and good morning. I am 
Harlin McEwen. I am Deputy Assistant Director of the Criminal 
Justice Information Services Division of the FBI. I apologize 
for my gravelly voice, but I am just getting over a case of 
laryngitis. This is the first day I have really attempted to 
try to speak publicly.
    I am pleased to have this opportunity to inform you of the 
work that we have been doing at the FBI as it relates to 
assisting State and local law enforcement on the topic of year 
2000 readiness and the criminal justice information systems. As 
you mentioned, I am a former city police chief of over 20 years 
and I currently serve as the Chairman of the Communications and 
Technology Committee of the International Association of Chiefs 
of Police, a position that I have held for 21 years.
    I have been personally involved in educating and assisting 
State and local law enforcement agencies on year 2000 matters 
for the past four to 5 years. At the FBI, we have taken a very 
proactive role in keeping the Y2K issue before the States and 
encouraging them to plan for and institute changes to make 
their systems compliant with our nationwide system.
    In the FBI advisory policy process, our primary interaction 
is with the State Control Terminal Agencies--we call them the 
CTAS, as you mentioned, another one of these little 
references--who are responsible for providing the appropriate 
interconnect with the FBI system and for providing the 
necessary Statewide systems and access for State and local 
agencies to the FBI system.
    The following is a brief chronology of the actions by the 
FBI to assess the readiness of the State CTA's and to ensure 
that they were aware of the consequences if State systems are 
not ready for the date change. Starting in the spring of 1996, 
the FBI CJIS Division prepared a staff paper for the Advisory 
Policy Board Working Group meetings presenting the Y2K issue 
and proposing alternatives for compliance. The working group 
recommended converting all dates in the NCIC system, or 
National Crime Information System, to the Y2K format. This 
recommendation was approved by the APB at their June 1996 
meeting.
    In September 1997, the FBI CJIS Division and the 
Information Resources Division of the FBI hosted over 400 State 
and local criminal justice agency representatives at the NCIC 
2000 Technical Conference in Tulsa, Oklahoma. At this 
conference, the timetable and formats for the Y2K date were 
presented and the need to plan for necessary changes was 
stressed.
    On September 25 of 1997, the FBI CJIS Division sent a 
technical and operational update to all the States informing 
them of the timetable and the formats for the date changes.
    In January 1998, the FBI surveyed the States and requested 
information regarding the readiness of the States for NCIC and 
Y2K compliance. At the request of our Advisory Policy Board, 
the States were sent a letter explaining the Y2K schedule and 
the consequences of not being compliant with nationwide systems 
by July 1999. The reason for the July 1999 reference is that 
that is when we will be actually delivering our new NCIC 2000 
and our new Integrated Automated Fingerprint Identification 
System and it is necessary for the States to be able to 
interact with those systems at that point in time in a Y2K 
format.
    The letter enclosed a form requesting that the agency head 
sign a statement acknowledging that the schedule and the 
consequences are understood. All States responded with a signed 
statement. Unfortunately, the District of Columbia did not 
respond.
    In December 1998, the District of Columbia Metropolitan 
Police Department contacted the FBI and indicated they were 
having difficulty with Y2K compliance and requested FBI 
assistance. The FBI CJIS Division and our Information Resources 
Division responded to the District with technical consultants 
and the conversion software developed by the FBI to convert 
NCIC dates.
    Subsequent to this, the city government provided the 
Department with additional resources and we have been assured 
that the situation is now under control. This is particularly 
critical, because the District of Columbia Metropolitan Police 
Department provides the interface to our FBI system for all law 
enforcement agencies in the District. This includes all the DOJ 
components, such as the FBI, the Drug Enforcement 
Administration, U.S. Marshals Service, the Immigration and 
Naturalization Service, and the Bureau of Prisons. It also 
includes the Treasury law enforcement agencies such as the U.S. 
Secret Service, ATF, U.S. Customs, and agencies that are quite 
prominent in your traveling around, the U.S. Park Police and 
the Postal inspectors.
    Between November 1998 and April 1999, the FBI has been 
conducting external interface checkout testing with all States. 
The States have been strongly encouraged to use this Y2K 
compliant data format in these tests. However, we did not make 
it mandatory, as some States are still in the process of 
converting their software or have contracts with work in 
progress to make their systems Y2K compliant.
    In February of this year, the FBI hosted another conference 
of over 400 State and local criminal justice agency 
representatives at our Integrated Automated Fingerprint 
Identification System [IAFIS], technical conference held in Los 
Angeles. At this conference, again, the timetable and other 
issues related to Y2K issues were presented and the need to 
plan for necessary changes was stressed.
    Between February and May of this year, we have started 
conducting site operational tests. We call it the SOT. Those 
States which did not use the Y2K compliant date formats in the 
EIC are now required to do so in these site operational tests.
    In July, as I mentioned, we will be delivering the NCIC 
2000 and IAFIS systems and we expect that they will be fully 
operational. Of course, at that time, the Y2K date formats are 
mandatory.
    I will mention that the Attorney General has expressed 
continuing concern about the Y2K issue, and Mr. Colgate has 
mentioned it in his remarks. She had asked us at the FBI, 
because we do have to be sure that this is going to be all 
working when this all happens, to take one extra effort, and 
yesterday, I spent a great deal of the day discussing with our 
FBI team how we were going to take one last effort to try to 
make sure that we have done everything possible to assist the 
State governments to be prepared.
    So we have made the decision now that in the next 2 weeks, 
we will start sending out teams. We are planning on sending out 
five teams of two to three States a week and we expect that in 
five to 6 weeks, we will have visited every State once again, 
and we will, hopefully, complete that by late June and we will 
have a complete sense of whether the States are in final 
readiness.
    I would mention that, again, our primary interface is with 
the States and their primary responsibility is to make sure 
that the State and locals will comply with their State formats, 
which will then, of course, come on to the FBI. We are prepared 
to offer assistance to all of these States and I think that 
what we have done and what we are doing are appropriate from 
the Federal Government perspective in our role in assisting 
them.
    I thank you for the opportunity to give you this overview 
and would welcome any questions.
    Chairman Bennett. Thank you for your testimony and for your 
work. We will look forward to the results of that State-by-
State survey that you just described to us.
    [The prepared statement of Mr. McEwen can be found in the 
appendix.]
    Chairman Bennett. Chief Karangekis, we appreciate you being 
here and we will hear your testimony.

STATEMENT OF JOHN S. KARANGEKIS, CHIEF OF POLICE, WETHERSFIELD 
          POLICE DEPARTMENT, WETHERSFIELD, CONNECTICUT

    Mr. Karangekis. Thank you, Senator. Basically, what I have 
heard this morning in previous testimony pretty much parrots 
many of the things that I have in my short presentation.
    An informal survey of a cross-section of police agencies in 
the State of Connecticut reveals that agencies vary in their 
level of progress to remediate Y2K issues prior to the turn of 
the century. There is consensus that it is imperative that each 
law enforcement agency show due diligence in their efforts to 
mitigate any adverse impact resulting from non-compliant 
technology. It is believed that the Connecticut experience is 
probably similar to that of all other law enforcement agencies 
throughout the country, and I am beginning to pick that up as I 
hear some of the testimony.
    The majority of large cities and towns in Connecticut 
appear to be much ahead of some of the smaller police 
departments and communities. It is clear, however, that law 
enforcement agencies recognize, at this point, particularly, 
the importance of due diligence and are actively addressing 
those issues in their own communities, again, I repeat, at 
various levels of completion.
    A recently released Y2K readiness report distributed by the 
State of Connecticut, the Department of Information Technology, 
regarding Y2K remediation efforts gives strong indicators that 
they anticipate there will only be a minimal adverse impact 
during the turnover. That is based on their projections that 
most of the State will have addressed all the technological 
issues, the interfacing, both at the State, Federal, and local 
level, obviously, and that these systems will, for the most 
part, do what they are supposed to do.
    Most significantly, it appears that in our State, who we 
have just recently redone the entire 911 system with both new 
hardware and new software--that is being done as we speak and 
those systems will be turned on sometime during the late 
summer, I believe. They are all in place, local PSAP's. They 
have not been interconnected yet because there is still some 
work going on on the technology and servicing end, but this 
system in Connecticut is Y2K compliant. The issue, of course, 
is again to make sure that any system or technology that those 
systems interface with is also Y2K and we are in the process of 
doing those things now.
    Like many communities, the town of Wethersfield has 
initiated a town-wide year 2000 readiness. We have committees 
that have been set up. Each department in our town government 
as well as State government determines their own issues. They 
determine what their technology is all about. They go about 
getting assistance to determine whether, in fact, their 
hardware and software are all Y2K compliant.
    It appears at this time that approximately 80 percent of 
all the towns in the State of Connecticut, town and police 
technology, including computers, telecommunications, alarm 
systems, internal data systems, and records systems are Y2K 
compliant. Progress is being made through follow-up, software 
upgrades, and/or replacement.
    Progress is being made. However, the one thing that we have 
noticed is that it has become increasingly difficult for us to 
get specific answers from some of the vendors, some of the 
manufacturers, particularly in the telecommunications area. 
There is a reluctance on their part to specifically say, ``You 
are all set.'' It is very, very difficult to get them to put it 
on paper. They do couch their words when they talk to you, and 
even when they come out and do an assessment, the report you 
get is permeated with disclaimers. That seems to be a problem 
and we are hoping that that is going to rectify itself as time 
goes on.
    The one thing that I have noticed and have particularly 
taken concern with is that we perhaps started a little too late 
to deal with Y2K. We probably should have started 5 years ago, 
because now the situation is that everybody is rushing to make 
sure that they are going to be adequately in place at the time 
that the century turns over.
    Contingency planning, obviously, is the most important 
thing for us at this point because of the unknown factors here. 
In the police service, contingency planning is something that 
we do frequently, Statewide, locally. We have had disasters 
before. We have had power outages before. We have had 
situations where we have had to come together. I feel 
reasonably certain that at least from the point of responding 
to public safety situations in local communities and at the 
State level, that we will be able, in fact, through our 
contingency planning and replacement of certain kinds of 
equipment that is not affected by Y2K bugs, we are going to be 
able to deliver police services, perhaps at a slower rate and 
dependent on how many failures may occur, if they do occur.
    I believe that we have to be very diligent in our efforts. 
Time is short. There are some law enforcement concerns that are 
very paramount, particularly for smaller police departments. I 
would name some of those as the reluctance of vendors to 
guarantee Y2K compliance clearly. We concern ourselves about 
the reaction of the community when the time comes for the 
turnover. We almost anticipate that at 1 minute after midnight 
January 1, 2000, that everybody is going to be picking up their 
telephone and trying to call all public safety points to see if 
we are in business. That in itself would cause some problems.
    There are significant costs associated with contingency 
planning and staffing and costs for updating hardware and 
software. That is a difficult situation, particularly for small 
communities where there has not been much significant long-term 
planning for these things, and that is why I say I am sorry we 
did not start these things several years ago.
    But we are prepared. I believe that any situations that 
occur will be minimal, but we have to continue to pursue Y2K 
compliance in all areas of public safety and I believe that we 
will be able to do that if everybody wakes up. Thank you.
    Chairman Bennett. Thank you very much. I have always said 
that the way to solve your Y2K problem is very simple. Just 
make sure you start in 1994 and you will not have any 
difficulty.
    [The prepared statement of Mr. Karangekis can be found in 
the appendix.]
    Chairman Bennett. Chief Brown.

  STATEMENT OF JAMES N. BROWN, CHIEF OF POLICE, HUDSON POLICE 
                    DEPARTMENT, HUDSON, OHIO

    Mr. Brown. Good morning, and thank you, Senator Bennett. I 
am honored and privileged to come before you this morning to 
provide you with a municipal law enforcement administrator's 
perspective concerning Y2K and the contributing factors that 
have led to varying degrees of apathy from within the law 
enforcement profession, which has not emphasized a strategic 
response in the form of a community-wide contingency planning 
objective.
    As the Chief of Police for the city of Hudson, Ohio, a 
community of approximately 23,000 residents located between the 
cities of Cleveland and Akron, I have oftentimes found myself 
having to contend with problems categorized in broad terms as 
safety and security matters. Safety and security can be 
compromised if we trivialize or ignore various indicators of an 
impending problem or crisis, and Y2K presents classic 
indicators of such a nature.
    Basic utility services alone are critical components of a 
community's safety and security, and although their 
dependability is remarkable, it has correspondingly lulled many 
of us into a false level of expectation, whereby failure is 
thought of as being virtually impossible.
    In the absence of active discussion at various association 
meetings, regional conferences, et cetera, and the virtual non-
existence of Y2K-related training sessions specifically 
designed for law enforcement to address Y2K from something 
other than a technology perspective, it is unlikely that most 
agencies have even discussed the possible implications that Y2K 
poses. Most law enforcement administrators, on the other hand, 
are sufficiently motivated to prepare their respective agencies 
and communities if they are exposed to some basic guidance and 
direction that originates from within our own profession.
    The law enforcement profession is equipped with vast media 
resources through its many associations, and yet, with few 
exceptions, there has not been much substance in coming to 
terms with contingency planning.
    There is a considerable level of apathy from within the 
profession, as I mentioned, concerning Y2K and a variety of 
factors have influenced this response. There is considerable 
contradiction and rhetoric amidst the voluminous amount of 
documentation being made publicly available, which I believe 
have clouded the issue and drastically minimized Y2K's 
credibility as a potentially serious problem.
    Terminologies such as ``minimal impact'' or ``sporadic 
disruption'' have created a comfort factor for skeptics in all 
professions. Sporadic almost implies the existence of some 
distant community on the other side of the globe to which we 
have no allegiance or direct responsibility. The immensity of 
our communities oftentimes jades our sense of the enormity of 
the United States. The perspective changes rather dramatically, 
however, when I suggest the placement of a straight pin into 
one's hometown on a wall-sized map of the United States and I 
pose the question, ``Could your hometown be Sporadicville?'' 
Perhaps it is the absence of the threat of structural damage 
and property destruction that has caused many law enforcement 
administrators to downplay the significance of Y2K. Perhaps it 
is the absence of a sustained media campaign to bring Y2K 
implications to the attention of the American public, which to 
date has been limited. One local television reporter 
representing a large network was advised by management that the 
Y2K issue was too frightening and might induce fear and cause 
panic, this from the same network that daily provides graphic 
pictorial details of human misery and death worldwide.
    Several weeks ago, I forwarded a letter to the general 
managers of 12 different major media outlets advocating the 
necessity for additional media exposure. To date, I have 
received not so much as a single response.
    There is a relatively small percentage of communities and 
law enforcement agencies throughout our country who have 
experienced crisis in its infinite forms, managed it 
effectively, and are thoroughly prepared to implement a 
successful contingency plan at a moment's notice, and then 
there are all the rest.
    Even a perfect plan loses its luster and brilliance if the 
true beneficiaries of its development and execution, our 
residents, are unaware as to how they summon critically needed 
emergency services in the absence of a functioning 
telecommunications network; the availability of predetermined 
shelters, if they have exhausted their own resources or their 
homes are and/or become uninhabitable; and we have failed to 
provide simplistic, yet essential, guidelines as to how the 
average family can sustain itself in the absence of government 
assistance.
    The character, the grit, and the determination of the law 
enforcement profession, continually faced with challenge and 
adversity, lend themselves to a successful outcome regardless 
of the nature of the event. The local law enforcement agency is 
in some respects the first and last line of defense for our 
communities and they will be looking at us, as law enforcement 
administrators, for direction and guidance as 1/1/2000 
approaches. The law enforcementprofession must recognize this 
responsibility and meet the challenges that it presents.
    Be there no mistake, however. Our dependability and 
reliability is, as always, rock solid, and with special regard 
to Y2K, it is the lone absolute amidst a world of uncertainty. 
Thank you very much.
    [The prepared statement of Mr. Brown can be found in the 
appendix.]
    Chairman Bennett. Thank you all very much. We have just 
started a vote, so I have my eye on the clock perhaps a little 
more than usual.
    Let me go back to a comment you made, Mr. Colgate, and get 
everyone's quick response to it. You mentioned traffic control. 
Does anyone have a sense of how reliable the traffic systems 
are, the signals are and so on are? Has anybody looked at that? 
Yes, Chief Karangekis?
    Mr. Karangekis. Senator, I can only speak for the State of 
Connecticut, only because within the past few days, we have 
networked with State traffic control and they are of the 
opinion that they are going to be ready, that they feel they 
are going to be able to handle the traffic function. I am 
hoping that that is a correct statement.
    Chairman Bennett. I was struck by your comment about 
everybody picking up the phone after they have celebrated and 
calling to make sure everything works. This can become a self-
fulfilling scenario for panic. Gee, everything does not work 
and the whole thing must have failed, and it did not fail, it 
is just overloaded.
    So we come back to the whole question that you were 
addressing, I think, Chief Brown, of getting the media to 
understand what is real, what is not. This is an unfair 
generalization, but elements of the people in the media seem to 
swing between this is the end of the world as we know it, or 
you are wasting our time to even hold these hearings because 
everything is going to be fine. The reality, of course, is 
between those two extremes. We could get some help from people 
in the media if they could just be a little more measured in 
their reporting, but somehow, being measured does not fill 
airtime. You were going to comment on that further?
    Mr. Brown. As I stated, I think the local police 
administrators are anxious to learn as much as they possibly 
can about the whole issue. Furthermore, I think the communities 
are looking for the leadership and guidance from, in some 
jurisdictions, it is the law enforcement agency head for 
guidance. And I think it is important that, obviously, we spend 
the time in meeting with our respective communities to bring 
them into an awareness level, teach them how to prepare, and 
some guidance, as was just mentioned, in terms of suggesting to 
folks that they not pick up the phone routinely to make sure 
that the system is working, et cetera. So I think the public is 
looking for our assistance in that regard.
    Chairman Bennett. Mr. McEwen, can you give me the typical 
failure mode for crime information systems? In the worst case, 
what could happen, arrest warrants or a person's information be 
erroneously dropped from the system? Is that something that 
could happen?
    Mr. McEwen. Well, I do not think so, because the main data 
base, we maintain, and we have complete assurance that our 
systems are Y2K. It is the connectivity that is the more 
dangerous that we are trying to address. The scenario is that 
you started back with the earlier panels the discussion about 
911. It all starts kind of in the beginning at the local level 
and all of those connections until it gets to the FBI, like the 
NCIC system, where they are checking for a wanted record on an 
individual, every one of those links has to work.
    The worst case scenario is that any one point in that whole 
communications link fails and they are not able to get timely 
information. We have pretty good assurance, as I said, that the 
States are prepared to handle that. What we really do not have 
a good sense of, and one of the things that we will do in our 
visits in the near future will be to ask once more, how well 
are the States set in their readiness with the local agencies, 
such as these chiefs in Connecticut and in Ohio.
    Mr. Colgate. Mr. Chairman, if I could just add to that----
    Chairman Bennett. Sure.
    Mr. Colgate. In my discussions with John Koskinen on the 
Council, the best way I can describe this is that we are very 
confident in the Federal system, that the Federal system will 
be up and running. But my concern is, to give you an anecdotal 
example, is that you have a very small police department, let 
us say less than half a dozen sworn officers, and they do a 
traffic stop and they have a particular individual, and because 
they are not Y2K ready, they will not impact the Federal 
system. The Federal system will be able to operate.
    What I am concerned about is the officer on the street not 
having the ability to do a search about somebody who he has 
temporarily detained and ascertain who is this individual? Does 
this individual have a criminal history? Am I exposing myself 
and the community to danger? The system will be there and 
available to him. It is just our concern that he will not have 
the capability to make that query.
    That is why the Attorney General has asked the FBI to 
really focus its efforts now and really get out there and deal 
with the States who we hope, in turn, will be that leveraging 
agent down to that very small local police department.
    Chairman Bennett. Thank you for that. I would hope that as 
you go through this assessment on the part of the FBI under the 
direction of the Attorney General, that you try to put together 
a road map of where the remaining problems are and fairly firm 
indication of who needs help.
    We are getting a general picture here, which, frankly, is 
not unlike that which we get from the business community as a 
whole. That is, the big companies are probably going to be all 
right. You are telling us the Justice Department is going to be 
all right. You are telling us the State of Connecticut is going 
to be all right. It is the smaller to medium-sized companies, 
and from the testimony overall that I am hearing here, it is 
the smaller and medium-sized law enforcement agencies that have 
the most problem.
    But we do not know. We are guessing. We have two chiefs 
here who tell us that they are going to be fine, primarily 
because they are doing the prudent thing and getting 
contingency plans in place so that if the connectivity that you 
talked about does not work, they can still see to it that their 
law enforcement is available.
    It is the fact that we are flying blind in these areas that 
causes us the concern, and I would hope that the Justice 
Department would look to try to construct that kind of road map 
and say, all right, here are some more specific statements of 
exactly where we are and what we are doing.
    Mr. Colgate. If I could just respond briefly, Mr. 
Chairman----
    Chairman Bennett. Certainly.
    Mr. Colgate. I agree with that assessment. We have met 
informally with the Federal Emergency Management Agency, and 
because of the smaller communities, we are dealing with very 
small law enforcement operations, usually, you have sort of a 
combined emergency response capability in those very small 
rural areas. We are going to be entering into a partnership 
with FEMA to engage in a telephonic survey to really focus on 
some of those smaller locations so that we can get a better 
sense and get a better assessment of the issues that they face.
    We have a good window with the FBI because of the fact that 
we constantly have a window into their operations at the State 
level. But we hear you loud and clear and we will be working 
with FEMA to really focus on those smaller communities where 
there is a combined emergency/public safety response to get a 
better snapshot.
    Chairman Bennett. Finally, and then we will have to adjourn 
the hearing, Mr. McEwen, you have talked about people who have 
a very late timeframe to get this under control, and I would 
hope as you do your State-by-State assessment you would focus 
on that, because the fear we have in this committee is that a 
lot of people who give us their assurance, yes, we will be 
ready, are saying, we will be ready because things will be 
delivered to us in October or November or by the 15th of 
December and so on. Life being what it is in the IT world, 
something that is delivered in November is not going to be 
reliable in January.
    The President set March 31 as the deadline for the Federal 
Government to be compliant. There are some Federal agencies who 
missed that. Then we are saying, well, as a backup date, June 
30, or the second quarter. That is really as late as we can go 
with the big systems.
    Now, there may be some small systems that could survive if 
the fix shows up in August or September, but as you go around, 
try to make a list of those who are saying, everything is going 
to be fine and it is going to show up on Halloween. That is 
really pretty scary and we would like that information, if you 
would share it with us.
    Mr. McEwen. I totally agree with you, Mr. Chairman, and I 
think that is exactly why the Attorney General has asked us to, 
one more time, just go out there. We are convinced that there 
may be some cases where they have told us that everything is 
fine and when we get there, they are going to say, well, we are 
still working on it and we are not quite sure. We need to know 
that, so we hope we can help them with that.
    Chairman Bennett. We thank you all. The committee is 
adjourned.
    [Whereupon, at 10:52 a.m., the committee was adjourned.]
                            A P P E N D I X

                                ------                                


              ALPHABETICAL LISTING AND MATERIAL SUBMITTED

                                 ______
                                 

            Prepared Statement of Chairman Robert F. Bennett

    Our hearing today marks the second time in six months that this 
Committee will address the important topic of Y2K emergency 
preparedness. Our October 2, 1998 hearing focused on emergency 
management, and included testimony from FEMA, the National Guard 
Association, the National Emergency Managers Association, and the 
National Governors Association. Today we will concentrate on the impact 
of Y2K on two specific areas of emergency preparedness: 911 systems and 
local law enforcement. We touched somewhat on these areas during the 
October 2 hearing, but today we address these issues with a heightened 
sense of concern.
    Our concern about these areas is heightened for two reasons. In a 
report released last month, the Network Reliability Interoperability 
Council, or ``NRIC'', estimated that only ten percent of the Public 
Safety Answering Points or ``PSAPs'' where 911 calls are processed were 
prepared for Y2K. In an updated report received from the FCC yesterday, 
the Committee was informed that this number might now be as high as 35 
percent. However, it should be noted that this refers only to the 
equipment provided to the PSAPs by the telephone companies.
    There is still a large amount of equipment and information systems 
utilized within PSAPs about which little are known. An ongoing survey 
being conducted by the U.S. Fire Administration about overall readiness 
of 4,300 PSAPs indicates that overall readiness is only about 17 
percent. Survey results indicate some strong concerns about funding on 
the part of the PSAPs.
    Keep in mind that in the United States, there are approximately 
300,000 calls for emergency assistance made via the 911 system each 
day, not counting the additional 86,000 911 calls made daily from 
cellular phones. That is over 110 million 911 calls made per year. If 
problems within the systems supporting these public safety answering 
points are not properly addressed, these systems will fail, leading to 
degradation in the processing of 911 calls.
    I would like to announce that Senator Dodd and I are jointly 
sending a letter to Commissioner Michael Powell of the FCC, who is here 
with us today, and Administrator Carrye Brown of the U.S. Fire 
Administration asking that they work together to identify those PSAPs 
that are not yet prepared, and those who have not yet responded to the 
Fire Administration's survey. We have also asked that they provide this 
information to the appropriate 911 commissions, state Y2K coordinators, 
or other appropriate regulatory body governing those PSAPs. Hopefully 
this will help the states and local jurisdictions identify potential 
problems so that help can be provided to those that might need it. 
There may very well be some people out there that have a problem, but 
don't yet realize it, even at this late date. The supervisor of one 
PSAP told Committee staff that the radio system in his dispatch center 
required a $60,000 patch. Without the patch, they would have been 
unable to communicate with emergency service units at all.
    In regard to local law enforcement, the Committee has noted the 
absence of any overall assessment of the Y2K status of our nation's 
local law enforcement agencies. At the federal level, we have captured 
much information about our federal law enforcement agencies within the 
Justice Department and Treasury Department, such as the FBI, DEA, 
Customs Bureau, ATF, and Secret Service. This information has come to 
us through the quarterly OMB reports, and the work of the Inspector 
General offices of various departments. The news about these agencies 
is very good. If not already completely prepared, they are well on 
their way to being so, and we have every confidence they will be ready 
to meet their challenges on January 1, 2000. However, we are concerned 
about the lack of information on the segment of law enforcement that 
our citizens rely on most in their everyday lives, and that is the 
local law enforcement sector. This includes approximately 17,000 police 
and sheriff's departments across the country.
    As I have emphasized previously, we don't want to overstate the 
problem, or needlessly incite public panic. We have no reason to 
believe that our emergency service departments are not taking very 
seriously their responsibility to prepare for Y2K. We recognize 
however, that they are highly vulnerable to Y2K both in the 911 area 
and other areas of vital information technology. We are especially 
concerned about the lack of assessments of local law enforcement 
preparedness. Due to the lack of any hard data, we are unable to 
accurately make any statements about the level of preparedness in this 
area. As such, we find it necessary to hold this hearing today.
    Law enforcement agencies at the federal, state, and local level 
rely on a wide variety of criminal information data bases in order to 
safety and effectively do their jobs everyday. The National Crime 
Information Center (NCIC), the National Law Enforcement 
Telecommunications System (NLETS), the El Paso Intelligence Network, 
(EPIC), and the Narcotics and Dangerous Drugs Information System 
(NADDIS) form the backbone of crime information systems at the federal 
level. Some of these systems, particularly the National Crime 
Information Center and National Law Enforcement Telecommunications 
System also function as vital tools for all state and local law 
enforcement. Additionally, there are similar systems managed 
individually by each of the fifty states, as well as numerous regional 
crime information centers upon which local law enforcement agencies 
rely. Each police department also maintains its own arrest and criminal 
record systems. These systems play a vital role in increasing officer 
safety and the safety of the public, and enable the police to rapidly 
identify suspects and solve crimes.
    We hope that this hearing will help ``turn up the heat'' as one 
might say in police jargon, and to encourage more active assessments in 
these areas.
    The events in Littleton, Colorado last week stand as a sad and 
tragic reminder of the importance of our topic today. Before we begin, 
let me ask that we all keep the victims, their families and friends, 
and all those effected by that incident in our thoughts and prayers.
                               __________

                Prepared Statement of Jack L. Brock, Jr.

    Mr. Chairman and Members of the Special Committee:
    Thank you for inviting me to discuss the impact of the Year 2000 
computing challenge on the nation's emergency and state and local law 
enforcement systems and our review of the Department of Justice and the 
President's Council on Year 2000 Conversion efforts to facilitate 
remediation and contingency planning and to gauge the Year 2000 
readiness of these two important sectors.
    Briefly, we found that
    <bullet>  Limited information is available about the Year 2000 
status of 9-1-1 call answering sites throughout the nation, known as 
Public Safety Answering Points (PSAPs). The Federal Emergency 
Management Agency (FEMA) in conjunction with the National Emergency 
Number Association \1\ has surveyed 4,300 primary PSAPs on their Year 
2000 readiness; however, as of April 1999, only 18 percent responded. 
Of those that did respond, only 16 percent reported that their systems 
were compliant. However, the majority of the rest of the respondents 
reported that they will be compliant by 2000.
---------------------------------------------------------------------------
    \1\ This is a trade association seeking to foster the technological 
advancement, availability, and implementation of a common emergency 
telephone number system.
---------------------------------------------------------------------------
    <bullet>  Little is known about the status of state and local law 
enforcement agencies. No assessment surveys have been conducted. Last 
week, the Chairman of the working group focusing on law enforcement for 
the President's Council on Year 2000 Conversion informed us that such 
an assessment would soon be initiated in cooperation with a follow-on 
FEMA assessment of emergency services.
    <bullet>  Outreach efforts by FEMA, the Federal Communications 
Commission (FCC), the National Emergency Number Association, and other 
organizations have been fairly extensive, ranging from the development 
of contingency planning guidance to the hosting of forums for the 9-1-1 
community on meeting the Year 2000 challenge.
    <bullet>  Outreach efforts by Justice generally have been targeted 
to raising awareness and, with the exception of the Bureau of Prisons, 
largely ad hoc in nature.
    To prepare for this testimony, we reviewed the FCC's March 1999 
report on Year 2000 readiness in the communications sector; transcripts 
of the FCC's emergency services forum held in November 1998; and the 
April 1999 Network Reliability and Interoperability Council (NRIC) 
report on Public Safety Answering Positions. We reviewed test 
documentation prepared by Bellcore and the Telco Year 2000 Forum to 
assess the scope of Year 2000 interoperability testing conducted on 
both the local public network in general, and on the continued ability 
of this network to successfully process 9-1-1 calls for emergency 
services. Further, we reviewed information published on the Internet by 
manufacturers of computer systems supporting 9-1-1 sites as well as by 
the FCC, NRIC, FEMA, the President's Council on Year 2000 Conversion, 
National Emergency Number Association, International Association of 
Emergency Managers, National Emergency Management Association, National 
Association of Counties, National Public Safety Telecommunications 
Council, State of Minnesota, and the State of Texas. We also toured 9-
1-1 sites located in Arlington County and Fairfax County, Virginia, and 
we interviewed members of the Telco Year 2000 Forum and staff at both 
FEMA's U.S. Fire Administration and the National Emergency Number 
Association.
    We also reviewed available outreach strategies and plans for the 
Department of Justice and its component bureaus and documentation on 
actual outreach activities that they have conducted. We discussed with 
department and bureau officials their respective approaches to managing 
outreach activities, including outreach goals. Additionally, we 
attended meetings of the Police/Law Enforcement/Criminal Justice 
working group, reviewed documents prepared by the working group, and 
conducted interviews with the Chairman of the group. We performed our 
work in March and April 1999 in accordance with generally accepted 
government auditing standards.
    FEDERAL EFFORTS TO ASSESS CONTINUITY OF 9-1-1
    AND STATE/LOCAL LAW ENFORCEMENT SERVICES
    For the most part, responsibility for ensuring continuity of 
service for 9-1-1 calls and law enforcement resides with thousands of 
state and local jurisdictions. Nevertheless, the success of these 
efforts is of great interest at the national level as these services 
are critical to the safety and well being of individuals across the 
country. Thus, the lack of status information has increased concern 
about which, if any, critical emergency communications and law 
enforcement systems may not be compliant in time.
    The President's Council on Year 2000 Conversion was established in 
part to help provide leadership and work with state and local 
governments to address the Year 2000 computing challenge. Last April, 
we recommended that the Chairman of the Council develop a comprehensive 
picture of the nation's Year 2000 readiness, which would include 
identifying and assessing the Year 2000 risks within the nation's key 
economic sectors, including those posed by the failure of critical 
infrastructure components.\2\ By gathering basic information on Year 
2000 status and impact on public well being, the Council would be 
better prepared to advise any necessary action to mitigate risks.
---------------------------------------------------------------------------
    \2\ Year 2000 Computing Crisis: Potential for Widespread Disruption 
Calls for Strong Leadership and Partnerships (GAO/AIMD-98-85, April 30, 
1998).
---------------------------------------------------------------------------
    In October 1998, the Council tasked each of its working groups to 
complete sector assessments. These assessments were to be based on an 
assessment guide developed with input from GAO and were to be conducted 
in conjunction with related umbrella groups and trade associations. The 
Council's Emergency Services working group, which is chaired by FEMA, 
was responsible for conducting the assessment of emergency services, 
including 9-1-1 services. Because of the reliance of 9-1-1 services on 
the public switched network, this particular assessment was also 
dependent on results of the assessment conducted by the 
Telecommunications working group, chaired by FCC. The Council's Police/
Public Safety/Law Enforcement/Criminal Justice working group, chaired 
by the Department of Justice, was responsible for conducting the 
assessment of state and local law enforcement agencies.
    The first report summarizing the results of the Council's 
assessments was issued on January 7, 1999. The Council's second 
assessment report was issued on April 21, 1999. After the first report 
was issued, we testified \3\ that, while the study was a good step 
toward obtaining a picture of the nation's Year 2000 readiness, the 
picture remained substantially incomplete because assessments were not 
available in many key areas, including 9-1-1 and fire services. Also, 
some surveys did not have a high response rate, calling into question 
whether they accurately portrayed the readiness of the sector. We 
stated that the Council needed to remain vigilant and closely monitor 
and update the information in the sectors where information is 
available and obtain data for those where it was not.
---------------------------------------------------------------------------
    \3\ Year 2000 Computing Crisis: Readiness Improving, But Much Work 
Remains to Avoid Major Disruptions (GAO/T-AIMD-99-50, January 20, 
1999).
---------------------------------------------------------------------------
    9-1-1 SERVICES YEAR 2000 READINESS
    9-1-1 is the standard telephone number most Americans dial to 
quickly obtain assistance from police, fire, or emergency medical 
service providers. When dialing 9-1-1, callers depend on the country's 
telecommunications infrastructure, a high degree of automation, and 
emergency dispatchers to ensure that emergency personnel can be reached 
when needed.
    If Year 2000 issues are not adequately addressed, the response to 
an emergency could be degraded. Fortunately, a number of positive 
outreach efforts have been undertaken to assist local governments as 
well as telecommunications providers in preparing for the Year 2000. 
Unfortunately, with less than 9 months remaining before the millennium, 
the status of thousands of 9-1-1 answering sites is still largely 
unknown.
    9-1-1 and the Year 2000 Problem
    According to the FCC, about 90 percent of the population has access 
to 9-1-1 service and uses it to place most of the nearly 110 million 
emergency calls made in the United States each year. The remainder of 
the population, without access to 9-1-1 service, dials an ordinary 
seven-digit telephone number to contact emergency service providers.
    The National Emergency Number Association estimates that there are 
approximately 4,400 primary PSAPs operating nationwide. These PSAPs, in 
turn, may have one or more associated secondary PSAPs. For example, the 
City of Falls Church, Virginia, operates a PSAP that is secondary to 
Arlington County's primary PSAP, 9-1-1 calls originating in Falls 
Church would be delivered to the primary PSAP in Arlington County. 
Following initial processing, that call would be forwarded for dispatch 
to the secondary PSAP operated by Falls Church.
    The 9-1-1 system is a multi-step process that can vary from one 
PSAP to the next. However, 9-1-1 calls are initiated over the public 
switched network and most calls are made using ``enhanced'' 9-1-1 
service--that is, service that uses automation to provide dispatchers 
with the address and telephone number associated with the caller.
    The following figure depicts a typical 9-1-1 call.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    As the figure illustrates, the telecommunications component of the 
9-1-1 system includes the public switched network, the local telephone 
office, and one or more PSAPs. A computer system at the local telephone 
office--called the E911 tandem switch--automatically routes incoming 
calls to the proper PSAP. At the PSAP, the call is recorded and 
information, such as the caller's location and directions on how to get 
there, is retrieved from a database normally provided by a local 
telephone company called the automatic location identification (ALI) 
database. Other equipment common to PSAPs are telephones, answering 
equipment, and personal computers.
    The systems used by PSAPs and supporting telecommunications 
networks have processes such as day/time logging, call recording, 
computer aided dispatch, and records management systems that could be 
disabled by a Year 2000 failure. Should this occur, the following could 
happen.
    <bullet>  If the automatic number identification (ANI) database 
computers fail, 9-1-1 calls would not be selectively routed to a PSAP 
for processing, unless a default was established to route any call 
without ANI data to a specific PSAP. Depending on the service area, the 
loss of a 9-1-1 tandem switch could affect more than one million access 
lines.
    <bullet>  Also, if the automatic location identification database 
computers fail, the 9-1-1 attendant would get a voice path but not 
receive location data from the ALI database. The operator would then 
have to get location data from the 9-1-1 caller (which is routinely 
done with calls originating on wireless telephones) who may be confused 
or anxious.
    <bullet>  If the automatic call distributor fails, incoming calls 
would not automatically be delivered to available call takers.
    <bullet>  If a computer telephony integrated system (where the 
telephone has been totally replaced by computer) fails, the 9-1-1 
attendant would lose all functionality and no calls would be received.
    Another Year 2000-related problem is potential congestion in the 
public switched network arising from individuals making 9-1-1 calls to 
simply test the system. According to the Network Reliability and 
Interoperability Council, an increase in 9-1-1 traffic could result in 
callers getting circuit busy signals, put on hold for long periods, or 
disconnected.
    Limited Information Is Available Concerning
    The Status of Year 2000 Readiness for 9-1-1
    Successfully completing a 9-1-1 call next January 1--and taking 
full advantage of all the features of enhanced 9-1-1 service--is 
dependent on two major factors. First, the ability of the public 
switched telecommunications network to transmit the call and, second, 
the ability of the PSAP to process the call.
    With respect to the public switched network, the Telco Year 2000 
Forum on Intra-Network Interoperability Testing, which is made up of 
local exchange carriers representing 90 percent of all access lines in 
the nation, recently conducted tests to determine whether the public 
switched network could carry calls in a Year 2000 environment. The 
tests were performed on 54 different configurations of central office 
equipment that included a majority of the network components used in 
North America.
    Only six Year 2000 problems were identified by the Telco Year 2000 
Forum in over 1,900 test cases on these configurations, which involved 
80 products from 20 different vendors. Assuming these tests were 
carried out effectively, their results provide some confidence that, if 
remediated, the public switched network should continue to function 
into the new millennium with no major service interruptions caused by 
Year 2000 dates. However, these tests did not focus specifically on 9-
1-1 services and, as such, they did not test numerous ``back end'' 
systems that a PSAP might use, such as computer-aided dispatch systems, 
call logging systems, call recorders, and radios. PSAP operators are 
responsible for ensuring that these systems operate and interoperate 
properly after the date change.
    The status of the ability of PSAP efforts to ensure that they can 
effectively process 9-1-1 calls is less clear. The Network Reliability 
and Interoperability Council \4\ reports that major local telephone 
companies have taken action to ensure that PSAP systems they provide to 
their customers have been remediated. However, as of April 16, 1999, 
only 18 percent of 4,300 PSAPs had responded to a readiness survey 
conducted by FEMA and the National Emergency Number Association. Of the 
766 sites that did respond, only 16 percent reported that they were 
ready for the Year 2000. Another 70 percent of those responding 
reported that they will be Year 2000 compliant in time for the 
millennium. Because of the low response rate, FEMA is planning to 
conduct telephone interviews with those sites that did not respond to 
the initial survey.
---------------------------------------------------------------------------
    \4\ The Network Reliability and Interoperability Council (NRIC) is 
a federal advisory committee that provides guidance to the Federal 
Communications Commission on how to promote the reliability of the 
public switched network.
---------------------------------------------------------------------------
    The Network Reliability and Interoperability Council developed its 
own assessment of PSAP Year 2000 readiness. The NRIC estimated that at 
present, fewer than 10 percent of the nation's PSAPs have completed 
upgrades of the 9-1-1 call processing equipment. However, according to 
the Council, many upgrades have been scheduled and should be completed 
within the second and third quarters of this year. The Council's 
evaluation did not address the Year 2000 readiness of any of the other 
equipment employed within the PSAPs that support call processing or 
personnel dispatch. The proper functioning of that equipment is the 
responsibility of PSAP managers.
    Positive Outreach Efforts to Ensure
    9-1-1 Year 2000 Readiness Are Underway
    To help ensure that emergency services will be accessible after the 
century date change, many organizations are engaged in outreach 
activities to state and local governments and even the 
telecommunications providers that support networks critical to 9-1-1 
calls. For example:
    <bullet>  In December 1998, FEMA included an informational Year 
2000 brochure with a survey that was sent to primary answering points. 
It also developed Year 2000 contingency and consequence management 
planning guidance that specifically identifies 9-1-1 systems as being 
at risk because of the Year 2000 problem. This guidance was made 
available to state and local government emergency managers through a 
series of Year 2000 workshops held throughout the country. The guidance 
was also presented in a multi-state teleconference of state Year 2000 
coordinators.
    <bullet>  The National Emergency Number Association is working to 
modify its technical standards, which cover a number of issues related 
to 9-1-1, to include Year 2000 compliance statements. The association 
is also advising its approximately 6,000 members to check their mission 
critical computers and equipment for Year 2000 readiness.
    <bullet>  The National Association of Counties has been working 
with the National League of Cities, the International City/County 
Management Association, and Public Technology, Inc. to address the Year 
2000 challenge and its potential to impact services provided by local 
governments. Together, these organizations have developed and 
distributed over 20,000 copies of a Year 2000 information kit and have 
sponsored a nationwide Year 2000 satellite broadcast for local 
government officials and employees.
    <bullet>  On November 16, the FCC hosted a forum--attended by 
federal, state, and county government officials, telecommunications 
providers, and equipment manufacturers--on maintaining emergency 
response communications and potential Year 2000 issues. Topics 
discussed included potential Year 2000 threats to the system, 
strategies for averting those threats, and the need to convey the 
importance of the Year 2000 challenge to other emergency response 
organizations.
    <bullet>  The Association of Public-Safety Communications Officials 
International Inc., is planning to hold a Year 2000 symposium on May 20 
and May 21 directed towards agency and company preparedness planning. 
Speakers will include officials from the FCC, the President's Council 
on Year 2000 Conversion and other federal government agencies, major 
utility companies, public safety communications center directors, 
volunteer associations and communications manufacturers and 
consultants.
    STATE AND LOCAL LAW ENFORCEMENT
    YEAR 2000 READINESS
    Over 19,000 state and local law enforcement entities provide 
services to protect the American public. These entities vary greatly in 
terms of specific services provided, geographic coverage, and use of 
computer and communication tools. Management information systems, 
computer aided dispatch systems, and radio communications are typically 
used throughout the law enforcement community. All need to be 
thoroughly checked to determine their Year 2000 vulnerability and then 
fixed, if necessary.
    Little Is Known About Year 2000 Status
    For State and Local Law Enforcement Entities
    The working group for Police/Public Safety/Law Enforcement/Criminal 
Justice has not done an assessment of state and local law enforcement 
agencies. Rather, its focus has been on increasing awareness through 
speeches, participation in conferences, and other similar activities. 
In the President's Conversion Council first report this past January, 
the working group reported:
          ``Based on informal assessment information, there is a high 
        level of awareness of the problem among non-Federal police/law 
        enforcement entities. State police/law enforcement entities and 
        departments in larger metropolitan areas are making good 
        progress. However, most departments at the county and 
        municipality level lack the sophistication to assess the Y2K 
        readiness of their service providers. These departments do not 
        have their own, dedicated IT resources--money and professional 
        staffing--and are instead dependent on the IT departments of 
        the county, city, or municipality of which they are a part. 
        Dedicated radio communications and dispatch systems are a 
        concern for all police/law enforcement organizations and the 
        working group is encouraging departments to focus on 
        contingency planning in this area.''\5\
---------------------------------------------------------------------------
    \5\ ``The President's Council on Year 2000 Conversion: First 
Quarterly Summary of Assessment Information (January 7, 1999).
---------------------------------------------------------------------------
    The working group made no report in the second national assessment 
summary issued earlier this month.
    Late last week, following our inquiries, the working group decided 
to develop an assessment of state/local law enforcement entities in 
conjunction with FEMA's efforts to develop more information on 
emergency services. The working group plans to conduct the survey by 
telephone to increase the response rate and to complete the survey by 
the time of the next sector summary report, which is expected in July.
    Justice Outreach Efforts are Limited
    According to the Justice CIO, the three department components with 
primary responsibility for outreach to state and local agencies are the 
Federal Bureau of Investigation (FBI), Drug Enforcement Administration 
(DEA), and Bureau of Prisons (BOP). With the exception of the BOP, 
neither the department nor its component bureaus have formal outreach 
programs with stated goals and defined strategies for actively reaching 
out to counterparts in state and local and international governments. 
In lieu of formal programs, the department and its bureaus are 
conducting largely ad hoc activities aimed towards increasing Year 2000 
awareness.
    Bureau of Prisons
    In January, we recommended that the Bureau of Prisons proactively 
identify organizations needing assistance and share their experiences 
and lessons learned in remediating and preparing for Year 2000 
problems.\6\ The Bureau agreed and has established a proactive outreach 
program. For example:
---------------------------------------------------------------------------
    \6\ Year 2000 Computing Crisis: Status of Bureau of Prisons' Year 
2000 Efforts (GAO/AIMD-99-23, January 27, 1999).
---------------------------------------------------------------------------
    <bullet>  BOP established a formal outreach program with stated 
goals and defined strategies for reaching out to its counterparts in 
the state and local correctional community. BOP's plan called for this 
work to be conducted through professional associations, with an aim to 
deliver relevant information to corrections officials and to provide 
direct assistance where needed. In addition, BOP plans to evaluate the 
effectiveness of its outreach activities, for example, by monitoring 
access to the BOP and National Institute of Corrections (NIC) Internet 
sites to assess the effectiveness of this mechanism in reaching its 
targeted audience.
    <bullet>  On March 1, 1999, BOP sent a letter to all members of NIC 
informing corrections officials about possible Year 2000 problems 
beyond those related to computer software and hardware. It mentioned 
such matters as embedded microchips in equipment like metal detectors, 
X-ray machines, and elevators, and encouraged officials to look into 
the compliance of such equipment. The letter informed recipients about 
the BOP and NIC Internet sites and provided the addresses to reach 
them. It also provided phone numbers to call if the recipients needed 
further assistance. BOP plans two more follow-up mailings throughout 
the year that will provide updated information, as appropriate, to 
state and local correction officials.
    <bullet>  Also, BOP plans to make a limited number of follow-up 
phone calls to recipients of the letter. The calls will be used to 
assess the usefulness of the initial mailing, and depending on the 
findings, to modify future mailings to better meet needs of the state 
and local facilities. Second, the calls will ask whether state and 
local facilities need assistance in their remediation. BOP officials 
admit that they have limited ability to provide direct assistance, but 
they believe they can share lessons learned during the course of their 
own remediation work.
    Other Justice Outreach Efforts
    Following are descriptions of other outreach efforts being carried 
out by the Department of Justice:
    <bullet>  On December 11, 1998, the CIO chaired a Year 2000 
outreach session with the Government Advisory Group for the Global 
Criminal Justice Information Network. Members of the Advisory Group 
include the American Correctional Association, the International 
Association of Chiefs of Police, the National Sheriffs Association, and 
the National Association of Attorney Generals, among others. The FBI 
made three presentations at the outreach session concerning the 
compliance of its key systems and forensic laboratories.
    <bullet>  On January 25, 1999, the Attorney General sent a letter 
to the presidents of seven law enforcement/criminal justice 
associations intended for publication in association newsletters. The 
letter discussed potential Year 2000 problems associated with law 
enforcement and the formation of the President's Council on Year 2000 
Conversion. It also provided the address of the Council's Internet site 
and encouraged state and local law enforcement agencies to take a hard 
look at their buildings, computers, and other devices that could be 
susceptible to the Year 2000 problem.
    <bullet>  The FBI has engaged in a number of activities to educate 
state and local law enforcement officials about the status of the FBI's 
mission-critical systems. FBI officials have spoken at law enforcement 
conferences about their Year 2000 program primarily to discuss the 
status of key systems, such as the National Crime Information Center 
system, and to provide assurance that these systems will be unaffected 
by Year 2000 problems. The FBI has also recently published an article 
in several law enforcement publications \7\ discussing the experiences 
the FBI had with its system remediation and encouraging state and local 
law enforcement groups to institute their own Year 2000 programs. The 
FBI is also using the Criminal Justice Information System Advisory 
Board, run by state representatives, to communicate Year 2000 
information to state and local users of FBI systems.
---------------------------------------------------------------------------
    \7\ Law Enforcement News, September 30, 1998, Law Enforcement 
Technology, August 1998, The Police Chief, March 1999.
---------------------------------------------------------------------------
    <bullet>  The Office of Justice Programs is working to build 
awareness through two forums. First, in July 1998, it distributed a 
notice to all grant recipients that all new equipment purchased with 
grant money is required to be Year 2000 compliant. The notice provided 
an Internet address and a phone number where recipients could obtain 
Year 2000 information. Second, at regional financial management 
training seminars held throughout the country, the Office has been 
working to build Year 2000 awareness by discussing some basic 
information about the problem.
    <bullet>  The Drug Enforcement Agency (DEA) has stated that the 
focus of its outreach efforts is making sure that its system interfaces 
with state and local and other counterparts are fully compliant. The 
DEA is also working with state and local law enforcement in field 
offices where DEA shares facilities with local or state counterparts.
    In conclusion, Mr. Chairman, not enough is known about the status 
of either the 9-1-1 system or of state and local law enforcement 
activities to conclude about either's ability during the transition to 
the Year 2000 to meet the public safety and well-being needs of local 
communities across the nation. The Emergency Services and 
Telecommunications working groups have been active in this area and 
plan to follow up on their initial surveys. The Police/Public Safety/
Law Enforcement/Criminal Justice working group has further to go to 
develop a more defined assessment but is moving forward.
    However, more needs to be done than simply determining the status 
of these two critical sectors. More specifically, these sectors, under 
the leadership of the Council should use the information made available 
through the working group assessments to identify specific risks and 
develop appropriate strategies and contingency plans to respond to 
those risks.
                                 ______
                                 
    Mr. Chairman, that concludes my statement. I would be happy to 
respond to any questions you or the Committee members have.
                               __________

       Responses of Jack L. Brock, Jr. to Questions Submitted by

                            Chairman Bennett

    Question 1. In your testimony, you say that only 18 percent of the 
4,300 9-1-1 call answering sites throughout the nation responded to a 
Federal Emergency Management Agency (FEMA) survey, and that of those 
800 or so respondents, only 16 percent or a little over 100 reported 
their systems Y2K compliant. That is frightening! It means that most of 
the nation's 9-1-1 systems, i.e., over 4,000, are not compliant. And it 
does not raise our comfort level that, with a little over 8 months 
remaining before the date change, most assert that these complicated 
systems will be made compliant in time. Are these statistics as 
alarming as they appear? What assurances do we have that Americans will 
have uninterrupted 9-1-1 service after the century change? Can you 
offer any reasons first for the low survey response rate, and second 
for the dismal performance of this group? Do you agree that, in 
general, those with the best programs are more likely to respond to 
surveys and, if so, are these statistics even more dismal than they 
appear?
    Answer. The general lack of information increased our concern about 
which--if any--critical emergency communications and law enforcement 
systems may not be compliant in time. However, we testified that 
successfully completing a 9-1-1 call next January 1--and taking full 
advantage of all the features of enhanced 9-1-1 service--is dependent 
on two major factors for which some good information is available. 
First, the ability of the public switched telecommunications network to 
transmit the call and, second, the ability of the Public Safety 
Answering Points (PSAPs) to process the call.
    With respect to the public switched network, the Telco Year 2000 
Forum on Intra-Network Interoperability Testing, which is made up of 
local exchange carriers representing 90 percent of all access lines in 
the nation, recently conducted tests to determine whether the public 
switched network could carry calls in a Year 2000 environment. The 
tests were performed on 54 different configurations of central office 
equipment that included a majority of the network components used in 
North America. Only six Year 2000 problems were identified by the Telco 
Year 2000 Forum in over 1,900 test cases on these configurations, which 
involved 80 products from 20 different vendors. Assuming these tests 
were carried out effectively, their results provide some confidence 
that, if remediated, the public switched network should continue to 
function into the new millennium with no major service interruptions 
caused by Year 2000 dates. However, these tests did not focus 
specifically on 9-1-1 services and, as such, they did not test numerous 
``back end'' systems that a PSAP might use, such as computer-aided 
dispatch systems, call logging systems, call recorders, and radios. 
PSAP operators are responsible for ensuring that these systems operate 
and interoperate properly after the date change.
    The status of the ability of PSAP efforts to ensure that they can 
effectively process 9-1-1 calls has become more clear since our 
testimony. The Network Reliability and Interoperability Council (NRIC) 
reports that major local telephone companies have taken action to 
ensure that PSAP systems they provide to their customers have been 
remediated. And since the time of our testimony, FEMA and the 
Department of Justice have worked to increase the response rate to the 
public safety organization Year 2000 readiness survey conducted by FEMA 
and the National Emergency Number Association. As of June 30, 1999, of 
the over 2,200 sites responding, 37 percent reported that they were 
ready for the Year 2000. Another 55 percent of those responding 
reported they would be Year 2000 compliant in time for the millennium.
    We have no information regarding FEMA's initial poor response rate.
    Question 2. We understand that contingency planning for most 
emergency service providers will consist of direct answering and 
dissemination of 9-1-1 calls, i.e., without today's level of 
automation. It strikes me that many organizations may not have the 
manpower or corporate knowledge to field calls ``the old way.'' Do you 
think this is a viable option for contingency planning? If not, what 
concerns would you have with this type of contingency plan, and can you 
suggest an alternative?
    Answer. The business continuity and contingency planning process 
focuses on reducing the risk of Year 2000-induced business failures and 
on safeguarding an organization's ability to produce a minimum 
acceptable level of services in the event of failures of mission-
critical information systems. Falling back to disseminating 9-1-1 calls 
without today's level of automation is a viable contingency plan, to 
which there is no feasible alternative, for the three 9-1-1 sites that 
we visited. Nevertheless, implementing contingency plans is not a risk-
free proposition and requires careful preparation to ensure that core 
business processes are adequately supported. This preparation includes 
thoroughly testing the contingency plans, dedicating required resources 
to implement the plans, and training staff to fulfill their roles 
during contingency operations.
    During our tours of 9-1-1 sites located in Arlington County and 
Fairfax County, Virginia, we were told that both sites use manual 
procedures when their computer assisted dispatch systems are not 
operating (such as during periods of scheduled maintenance or during 
unforeseen system outages). Similarly, during a more recent tour of the 
District of Columbia's Fire and Emergency Medical Services 9-1-1 site, 
we were told that the District of Columbia can operate using manual 
dispatching procedures and has recently practiced doing so. All three 
organizations recognize that operating without computer assistance 
lengthens service delivery times, but that performance remains within 
acceptable limits.
    Question 3. You indicate in your testimony that outreach efforts by 
Justice have been targeted to raising awareness only, and have been 
largely ad hoc in nature. Did your review uncover any particular 
reasons why Justice's outreach efforts to the over 17,000 law 
enforcement organizations in this country have been so lacking? What if 
anything in your opinion should Justice do to step up its outreach 
activities?
    Answer. The Department's outreach activities have been ad hoc in 
large part because Justice lacks a formal outreach program with stated 
goals and defined strategies for proactively reaching out to state and 
local law enforcement entities. With the exception of the Bureau of 
Prisons, Justice's component bureaus also lack formal outreach programs 
with goals and strategies. As discussed further in the following 
question, the FBI has taken actions recently to assess the capability 
of states to receive and send information through the National Crime 
Information Center (NCIC).
    Since many of Justice's components have the same law enforcement 
counterparts at the state and local level, the department's efforts 
could be more effective if the department centrally defined and 
implemented a clear strategy, with measurable goals, objectives, and 
timeframes, and targeted activities that were assigned to specific 
bureaus and were aimed at expediting the Year 2000 efforts of late 
starters.
    Question 4. As you indicate in your testimony, little is known 
about the status of state and local law enforcement agencies because no 
assessment surveys have been conducted. We understand that the law 
enforcement working group of the President's Y2K Council now plans to 
conduct such a survey. What recommendations would you make to maximize 
the timeliness and value of this survey? Considering that there is 
little over 8 months remaining until January 1, 2000, what should be 
done with the results of this survey? Would a survey even do any good 
at this late date?
    Answer. According to the Acting Deputy Assistant Attorney General 
for Information Resources Management, the FBI recently completed a 
survey of the 50 states to assess their readiness to send and receive 
transactions with NCIC 2000 (the NCIC replacement system) and is in the 
process of summarizing the results. The FBI could use this information 
to target those state and local law enforcement agencies most at risk 
of not being Year 2000 compliant and develop appropriate strategies and 
contingency plans to respond to the risks.
    Question 5. What do you believe are the biggest problems facing the 
emergency services sector at this stage?
    Answer. At a nationwide series of workshops for state and local 
emergency services managers sponsored by FEMA, the main issues raised 
by participants were (1) developing and disseminating public 
information, (2) successfully completing contingency plans and Year 
2000-related tests and exercises, (3) obtaining resources to address 
the Year 2000 problem, and (4) addressing concerns about human services 
including medical care, needs of special populations, and provisions of 
food and shelter.
    Question 6. Considering the seemingly low level of preparedness in 
the emergency services sector, particularly with Y2K compliance of 
complicated 9-1-1 systems, do you think it is likely that all of these 
systems can be repaired on time?
    Answer. Since we have not examined the remediation plans for the 9-
1-1 systems in the sector, we are not in a position to assess the 
likelihood of their being ready on time. However, we recently collected 
data on the Year 2000 preparations underway in the nation's 21 most 
populous cities. Thirteen of the cities reported that their 9-1-1 
systems are already Year 2000 compliant. Another five cities reported 
that their systems will be compliant by the end of September 1999. Two 
cities did not expect their 9-1-1 systems to be compliant until the 
fourth quarter of 1999. One city does not own or operate a 9-1-1 
system.
    Additionally, based on the results of FEMA and Justice survey work, 
the number of PSAPs reported to be compliant has increased, as well as 
the number of PSAPs indicating that they will be ready for the Year 
2000.
    Question 7. We understand that you recently toured one of the 9-1-1 
centers in the area. Can you tell us about that?
    Answer. On April 21, we visited the Emergency Communications Center 
(ECC) in Arlington County, Virginia. Arlington County leases its 9-1-1 
systems from Bell Atlantic, which has stated that the leased equipments 
is Year 2000 compliant. This equipment includes a call recording 
system, a computer-aided dispatch system, and a radio communications 
system.
    Arlington County's ECC is served by eight 9-1-1 communication lines 
provided by Bell Atlantic. To minimize the likelihood of outages due to 
communication disruptions (such as severed cables), the trunks do not 
all come to the ECC from a single Central Office; four trunks come from 
one Central Office and four trunks come from another. In the aggregate, 
these trunks represent the ECC's communications capacity to accommodate 
peak traffic loads. Arlington County also operates a scaled-down ECC 
located at an alternate location that functions as a back up in the 
event of a disaster at the primary ECC. In the event of primary site 
failure, staff would literally flip a switch to re-route calls to the 
alternate site.
    The ECC Administrator described the 9-1-1 call process for a 
hypothetical emergency call placed from Centreville, Virginia. The call 
would not be directly routed to the emergency response provider, but 
would instead travel to a service point operated by the local telephone 
company (in this example, operated by Bell Atlantic) located in either 
Baltimore, MD, or Philadelphia, PA. At this service point, a lookup is 
done in an Automatic Location Information (ALI) database.
    The call is then routed from the ALI lookup to the PSAP responsible 
for dispatching an emergency response unit to the caller's location; 
this is referred to as ``selective routing.'' At the PSAP, an 
operator's computer screen displays the following information: calling 
party address, community, state, etc. The operator verbally verifies 
the caller's address. If the address information is correct, the 
problem is coded, notes may be added, and an appropriate response is 
dispatched. If the information is not correct, the operator overrides 
the ALI information, inserts the correct problem location, codes the 
problem, and dispatches the appropriate response.
    Arlington County has completed its Year 2000 assessment of the 
systems in use in their ECC and spent $60,000 to remediate non-
compliant software used in its touch-screen radio consoles. A 
contingency plan is in place and manual backup procedures are used in 
the event of computer-aided dispatch system failures.
    On April 27, we visited the Fairfax County Public Safety 
Communications Center in Annandale, Virginia. Fairfax County has been 
working on the Year 2000 issue in conjunction with its PSAP vendor for 
about 18 months. On April 15, 1999, Fairfax County conducted a Year 
2000 test of its PSAP system. The test was run for 2 hours during an 
off-peak period, during which time all systems clocks were advanced. 
Based on the successful results of that test, Fairfax County officials 
expressed confidence that their PSAP systems are ready for the Year 
2000. However, in the event of a service disruption, PSAP staff would 
revert to the use of manual processes to deliver service to the public.

    We based our answers to these questions on interviews with 
Department of Justice and Federal Emergency Management Agency 
officials, analyses of 9-1-1 survey data, and our visits to PSAPs in 
Virginia and the District of Columbia. We conducted this work from 
April through July 1999 in accordance with generally accepted 
government auditing standards. We did not verify reported data or 
status information.
                               __________

                  Prepared Statement of James N. Brown

    This committee, with a strong sense of focus and determination, has 
done an admirable job of confronting a virtually unparalleled challenge 
in the form of the Year 2000 ``Millennium Bug'' technology issue that 
carries with it an enormous responsibility, considering the global 
implications at stake. I am honored and privileged to come before you 
this morning to provide you with a municipal law enforcement 
administrator's perspective concerning Y2K and the contributing factors 
that have led to varying degrees of apathy from within the law 
enforcement profession which has not emphasized a strategic response in 
the form of a community-wide contingency planning objective.
    As the Chief of Police for the city of Hudson, Ohio, a residential 
white collar professional community of approximately 23,000 residents 
within a 25 square mile geographical boundary between the cities of 
Cleveland and Akron, I have oftentimes, as have my colleagues, found 
myself having to contend with various problems that society has either 
chosen to ignore or has elected to categorize in broad terms as a 
``safety and security'' matter. In the blink of an eye, our safety and 
security can be compromised by a terrible experience that was perhaps 
manageable or avoidable had we been attentive to the various indicators 
of an impending problem or crisis. Y2K presents classic indicators of 
such a nature that the law enforcement profession would be hard pressed 
to ignore.
    Basic utility services alone are critical components of a 
community's safety and security. Although their dependability is 
remarkable, it has correspondingly lulled many of us into a false level 
of expectation whereby failure is an anomaly. This phenomenon is 
obviously not law enforcement specific, and there are certainly a 
number of communities nationwide who can readily attest to nearly 
insurmountable difficulties attributable to power outages and 
telecommunications failures, as can the law enforcement agencies who 
faced these challenges.
    In the absence of active discussion at various association 
meetings, regional conferences, etc., the virtual non-existence of Y2K-
related training sessions specifically designed for law enforcement, 
and a general lack of law enforcement specific web sites addressing Y2K 
from something other than a technology perspective, it is unlikely that 
most agencies have even discussed the potential ramifications that Y2K 
poses not only for their own operations but ultimately for the 
communities whom they serve. Conducting an inventory of critical IT 
(Information Technology) systems for Year 2000 compliance is an 
important component of the Y2K situation, but a fractional one amidst a 
possible avalanche of problems.
    I have found in my experience to date that most law enforcement 
administrators are genuinely concerned about the potential implications 
Y2K may generate and are sufficiently motivated to prepare their 
respective agencies and communities if they are afforded multiple 
training resources, informative documentation, and some basic guidance 
and direction from colleagues within our own profession. The law 
enforcement profession is equipped with vast media resources through 
its many associations, and yet, with few exceptions, there has not been 
much substantial in coming to terms with contingency planning. Thanks 
to the courage, wisdom, and vision of Kent State University, the Ohio 
Chiefs Association, and most recently the International Association of 
Chiefs of Police, I believe I may have finally succeeded at opening a 
few doors to an otherwise well-secured fortress.
    There is a considerable level of apathy from within the profession 
concerning Y2K, and a variety of factors have influenced this response. 
There's considerable contradiction and rhetoric amidst the voluminous 
amounts of documentation being made publicly available which, I 
believe, has clouded the issue and drastically minimized Y2K's 
credibility as a potentially serious problem. Terminology such as 
``minimal impact'' and ``sporadic disruption'' have created a comfort 
factor for those skeptics within my profession who, now more than ever, 
appear willing to role the dice and take their chances. Perhaps a 
dangerous game of Millennium roulette. ``Sporadic'' implies the 
existence of some distant community on the other side of the globe to 
which we have no allegiance or direct responsibility. The immensity of 
our communities oftentimes jades our sense of the enormity of the 
United States. The perspective changes rather dramatically when I 
suggest that a person approach a map of the United States armed with a 
straight pin and place the pin through the center of their hometown. I 
then pose the question: ``Could your hometown be Sporadicville?'' 
Perhaps it's the absence of the oftentimes overwhelming collateral 
structural damage and destruction normally associated with most natural 
and man-made disasters that has caused many law enforcement 
administrators to downplay the significance of Y2K. Responsible police 
administrators have absolutely no choice other than to plan for the 
worst-case scenario and hope, as you, for something significantly less. 
It would be unacceptable and irresponsible to do anything less. We have 
before us an opportunity and a challenge to transform our concern into 
a creative and effective action plan that will pay significant 
dividends to our communities whether Y2K-related problems come to pass 
or not.
    Perhaps it's the absence of a sustained media campaign to bring the 
Y2K implications and possible ramifications to the attention of the 
American public, which to date has been sporadic. One of two local 
television reporters representing large networks who personally assumed 
an active interest in Y2K was advised by management that the issue was 
``too frightening'' and might induce fear and cause people to panic. 
This from the same network that daily provides graphic pictorial 
details of human misery and death worldwide.
    Several weeks ago, I forwarded a letter to the general managers of 
12 different newspapers and radio and TV stations, along with some 
general Y2K information, advocating the necessity for additional media 
exposure. I received not so much as a single response suggesting that 
they had at least received the information, considered it, and decided 
against pursuing it further. When I wrote one of the more prolific 
nationwide law enforcement publications and provided them with 
significant amounts of ``contingency planning'' and ``personal 
preparedness'' documentation I have authored and felt would be 
beneficial for my colleagues, I was informed that the publication did 
not accept articles of a similar title. The article printed prior to my 
suggestion dealt strictly with IT issues. I expect an aggressive amount 
of media exposure in the final 8-12 weeks of 1999, which poses 
particular difficulties for law enforcement agencies who have failed to 
create a communications bridge with their residents concerning 
community-wide contingency planning and some basic guidance surrounding 
``personal preparedness.'' Quite frankly, we can most assuredly 
anticipate fear, panic, and a chaotic response from the public if we 
fail to educate our communities and dispel the Armageddon/ survivalist 
mentality, the prevalence of which will continue to grow 
disproportionately due to a lack of information from well-respected 
sources. The creative magic of communication carried out in a positive, 
informative, and well-intentioned, forthright manner will prove 
beneficial to the community, even if a worst-case scenario were to come 
to pass.
    With the exception of a relatively small percentage of communities 
and law enforcement agencies throughout our country who have 
experienced calamity, managed it effectively, and are thoroughly 
prepared to implement a successful contingency plan at a moment's 
notice, there are all the rest who need to revisit their ``disaster 
planning'' manuals or write a simplistic, yet functional one in earnest 
in the upcoming weeks/months, if one fails to exist.
    Although there are indeed many agencies who do in fact possess a 
comprehensive disaster plan that would certainly address any 
difficulties Y2K may pose for their communities, these plans are also 
typically voluminous and sophisticated beyond practicality. 
Furthermore, even those plans that are simplistic in nature and capable 
of being readily implemented and sustained for varying durations can be 
complicated from an operational standpoint due to personnel 
limitations, equipment resource shortages due to strained budgets, and 
the general chaotic environment routinely experienced at the onset of 
any crisis. Most crises possess multiple personalities and a 
relentless, ever-changing, and dynamic penchant for sustaining 
themselves for seemingly prolonged durations until surrendering to a 
semblance of order and normalcy.
    The perfect plan loses its luster and its brilliance if the true 
beneficiaries of its development and execution, our residents, are 
unaware as to how they summon critically needed emergency services in 
the absence of a functioning telecommunications network; the 
availability of predetermined shelters if they have exhausted their own 
resources, or their own homes are, and/or become, uninhabitable; and we 
have failed to provide simplistic yet essential guidelines as to how 
the average person or family can become self-sustainable in the absence 
of government assistance.
    Most of us have fortunately never experienced a crisis of 
disastrous proportions, and yet that, unfortunately, breeds a false 
sense of security and complacency that can cause us to be caught off-
guard if ill-prepared or unprepared. Law enforcement has typically had 
to manage every conceivable type of catastrophe at a moment's notice, 
and it has done so with a confident bravado and an envious swagger that 
are reassuring characteristics and attributes in the absence of order. 
We have exhibited a prevailing sense of ``winging it,'' expecting a 
successful outcome with a bit of luck, a serious dose of common sense, 
and the on-scene dramatics of an effective leader challenged by the 
impossible. Continual reviews, updates, and modifications are 
maintenance issues of disaster manuals that are oftentimes tabled due 
to more pressing priorities. There is, however, no such thing as being 
too prepared or being so well schooled as an organization in disaster 
management or contingency planning that some level of attention cannot 
be devoted to tailoring some Y2K specific planning. It is anticipated 
that as law enforcement administrators continue to be educated and 
updated on the possible implications Y2K may pose for their 
organizations and the communities they serve, a much more aggressive 
contingency planning and personal preparedness campaign will be 
launched in earnest well in advance of December 31, 1999.
    There are those people, law enforcement administrators included, 
who contend that the Y2K issue is all hype, is well on its way to being 
adequately addressed, and is nothing whatsoever to be concerned with.
    Perhaps, and I hope they're correct! However, contingency planning 
and community preparedness will serve us all well, no matter what 
happens on January 1, 2,000--or any other date beyond 1/1/2000 for that 
matter. The character, grit, and determination of the law enforcement 
profession continually faced with challenge and adversity lend 
themselves to a successful outcome, regardless of the nature of the 
event. The local law enforcement agency is, in some respects, the first 
and last line of defense for our communities, and they will be looking 
at us, as law enforcement administrators, for direction and guidance as 
1/1/2000 approaches. The law enforcement profession must recognize this 
responsibility and meet the challenges it presents. Be there no mistake 
about it, however; our dependability and reliability is, as always, 
rock solid, and with specific regard to Y2K, it's the lone absolute 
amidst a world of uncertainty.
    Thank you.
                               __________

         Responses of James N. Brown to Questions Submitted by

                            Chairman Bennett

    Question 1. Chief Brown, you testified that there is an absence of 
active discussion of Y2K preparedness at law enforcement association 
meetings and regional conferences, and that there are few Y2K-related 
training sessions for law enforcement. Who, in your view, has ultimate 
responsibility for ensuring that Y2K issues are addressed in such 
forums?
    Answer. I believe that the editorial staffs of all the major law 
enforcement publications have a responsibility to address the Y2K issue 
from something other than an information technology perspective, i.e., 
contingency planning, disaster management, personal preparedness, etc.
    In addition, each state chiefs' association likewise has a 
responsibility to encourage its membership to think along the lines of 
contingency planning, preparedness, etc., as do the various local 
county chiefs' associations.
    Question 2. You testified that one reason for the level of apathy 
from within the law enforcement profession concerning Y2K is the 
contradictory information about the issue, as well as terminology that 
you believe creates a ``comfort factor.'' Do you think there is any way 
that the law enforcement profession can wade through this contradictory 
information in order to conduct adequate preparations for Y2K 
emergencies?
    Answer. Those within the profession are more apt to take direction 
and guidance from their colleagues also within the profession. There 
are very few of us out there attempting to deliver this message. The 
necessity for media cooperation through the various associations and 
their periodicals is critical. It is incumbent upon the state chiefs' 
associations, as well as the International Association of Chiefs of 
Police, to host a number of conferences to address the Y2K issue, with 
particular emphasis on contingency planning and personal preparedness.
    Question 3. Chief Brown, you testified that you've had trouble 
getting the media to cover the Y2K issue because, in part, of the 
media's fear of causing panic. Do you think that it's possible for the 
media to find a balance between causing panic and providing responsible 
information to communities? If so, what is this balance?
    Answer. Media professionals are unquestionably capable of providing 
responsible information to the communities. Finding a balance can, of 
course, be a difficult proposition because each reader interprets what 
he has seen or read from his own perspective. Actually, the media has 
an opportunity to promote contingency planning and personal 
preparedness for use in any disaster scenario by merely utilizing Y2K 
as the vehicle to deliver the message.
    Question 4. Tell us about your own participation in Y2K awareness 
activities.
    Answer. Personally I have spent well over a thousand hours of 
research on the subject, I have been involved in a number of public 
presentations for various communities and community groups, and I have 
been actively involved at the state level with training for law 
enforcement officials through the Ohio Chiefs Association. I have sent 
mailings to all county administrators, be they Mayors or City Managers, 
and have offered presentations for their staff members. As the 
President of the Summit County Chiefs Association, I have inundated my 
membership with information. Most recently, a web site was created by a 
member of the Hudson community for purposes of sharing my thoughts and 
views with other law enforcement agencies around the country, as well 
as with private individuals. The web site address is www.hudson-oh-
pd.org.
    Question 5. I understand that you contributed to the recent Project 
Impact initiative on Y2K which the International Association of Chiefs 
of Police sponsored. Can you tell us about this initiative?
    Answer. I provided them with the documents that I authored 
concerning the Year 2000 issue and its impact on law enforcement. 
IACP's editorial staff then chose limited portions of my documents, as 
well as those of others who also provided information. I thought the 
initiative was well done; however, I also think each police agency 
should be on the receiving end of numerous other such mailings between 
now and the end of October.
    Question 6. How would you assess the activities of the major law 
enforcement associations regarding Y2K?
    Answer. I think I have previously addressed this subject; however, 
generally speaking, I think the coverage of the Y2K issue has been far 
too limited to the information technology difficulties that various 
agencies may experience. Y2K presents a unique opportunity for every 
law enforcement agency to address the issue of community-wide 
contingency planning.
    Question 7. What are your greatest concerns regarding the impact of 
Y2K on local law enforcement?
    Answer. I have addressed well over 500 police officers representing 
over 300 police agencies and have posed a simple question: How many of 
you have a plan in place to address emergency calls for service in the 
event the telecommunications network becomes disabled, for whatever 
reason, in your community? Two agencies out of 300 indicated they had a 
plan in place. I am extremely concerned that many mid-America law 
enforcement agencies who have fortunately not experienced a serious 
crisis or disaster are extremely ill-prepared to do so. Y2K planning 
will prove to be of significant benefit in any disaster scenario. Every 
agency speaks confidently of the existence of a disaster plan, and yet 
very few have ever worked with one. America's well being is dependent 
upon the reliability of local law enforcement. It is absolutely 
essential that every police administrator within every law enforcement 
agency from east coast to west coast recognize that responsibility. The 
preparedness/ contingency plan need not be complicated or costly, but 
there MUST be a plan, and it has to be understood by every member of 
their organization and as many residents within their respective 
communities utilizing every available media outlet and community 
policing opportunity to convey that message.
                               __________

                Prepared Statement of Stephen R. Colgate

    Good morning. I am Stephen R. Colgate, Assistant Attorney General 
for Administration, and the Chief Information Officer of the United 
States Department of Justice (DOJ). I am pleased to be able to share 
with you today some of my observations about Year 2000 (Y2K) readiness 
in the state and local law enforcement community. I hope you will 
appreciate that those observations are from the perspective of one who 
is not a member of the state and local community, and whose perspective 
is that of the Federal Government as a mission partner with different 
operational and resource considerations.
    I would like to speak to the five subjects areas of your invitation 
from two separate viewpoints. First, I will address them from the 
viewpoint of the DOJ, then from the viewpoint of the working group that 
I lead under the President's Council for Year 2000 Conversion. That 
working group has a very broad scope that involves more than local and 
state police agencies, and includes law enforcement in the context of 
such Federal regulatory activities as clean water and safe food.
    The DOJ has a mutually dependent relationship with state and local 
law enforcement agencies in many respects, including the temporary 
housing of Federal prisoners in local jails, the transfer of grant 
monies with the need to monitor and account for them, the collaboration 
in team-based criminal investigations, and the operation of large-
scale, national telecommunications and information technology networks. 
We have as big a stake in smooth operational continuity at the year's 
end as do our non-Federal mission partners. Yet, it is important to 
note that those partners are extremely diverse and numerous, and not 
all of them are typically called ``law enforcement agencies.'' For 
example, university departments of criminal justice that are grantees 
of our Office of Justice Programs are not necessarily included in the 
law enforcement agency category, and neither are the manufacturers, 
prescribers, and dispensers of controlled substances that file 
regulatory reports with our Drug Enforcement Agency. Yet, both are DOJ 
mission partners and both involve the flow of information that is 
potentially affected by Year 2000 problems. I could mention also the 
information activities of Immigration and Naturalization Service (INS) 
that involve mission partners that are not usually considered law 
enforcement agencies, but are most important to the INS and to DOJ.
    DOJ bureaus and divisions are responsible for all aspects of their 
missions, including addressing mission partner readiness. I am pleased 
to tell you that they have been working extremely hard at this for a 
great many months, and are in a very good position to make as smooth a 
transition at year's end. We have been reporting our progress regularly 
to the Office of Management and Budget (OMB), which has been sharing it 
with the Congress, and we are continuing to do so along with the other 
Federal agencies. In addition, OMB has singled out three DOJ mission 
areas, Immigration, Federal prisons and the National Crime Information 
Center (NCIC), as ``high impact Federal programs'' requiring additional 
reporting.
    Your invitation addressed specifically ``the Y2K awareness of state 
and local law enforcement.'' I see this as having two principal 
dimensions. One is the awareness relative to their mission-partner 
interactions with DOJ. The other is awareness relative to the 
activities that are purely and entirely state and local, not involving 
the mission interactions with the Federal Government. Examples of the 
former include those I have mentioned above, plus the Federal Bureau of 
Investigation's (FBI) fingerprint processing, the FBI's forensic 
laboratory services, and the FBI's NCIC. Examples of the latter include 
city police enforcement of parking meters and regulations, and city 
police maintenance of safe vehicular traffic on city streets.
    DOJ's strategy for Y2K awareness has been to concentrate on the 
operations in which we are a party. In so doing, we have encouraged our 
state and local mission partners to follow our lead and look to all of 
their own operations including those that do not involve the Federal 
Government. We are mindful that Y2K readiness starts with awareness, 
but if that awareness is not accompanied by the combination of timely 
and appropriate funding and the availability and employment of the 
necessary specialized technical skills, the awareness will yield 
nothing.
    Over the past 10 months, DOJ has waged a campaign of Y2K awareness 
with its mission partners in all mission areas, and especially in law 
enforcement. That campaign has included the Attorney General, myself, 
component senior officials, operations and staff personnel who are on 
the front lines of telecommunications and information systems, and 
laboratory operations. The campaign has included Y2K messages in 
speeches to national law enforcement agency audiences such as the 
International Association of Chiefs of Police, letters to the heads of 
such national law enforcement associations as the National Sheriffs' 
Association and National Association of Police Organizations, 
presentations made to national mission partner audiences by the 
Department's Y2K program manager, and instructions and other materials 
sent to the thousands of Office of Justice Programs grantees.
    I am pleased that Harlin McEwen of the FBI is here today to tell 
you some of the specific awareness activities that the FBI has been 
conducting. These have been so extensive that we have been getting some 
informal anecdotal feedback that many state and local officials have 
heard the message so loudly and so many times in so many venues that 
they can practically recite it from memory. There is no doubt in my 
mind that the FBI has done a stellar job of communicating Y2K awareness 
to all of its mission partners, which is all of the fifty states and 
United States Territories. They now know well the two things that are 
of paramount importance to DOJ, namely that DOJ is doing its own job of 
Y2K readiness so that the states can depend on DOJ's end of the partner 
relationship, and that they--the states--must do certain things to 
ensure that their end of the partner relationship will be Y2K ready. 
Those things include data exchanges that are part of information system 
operations, and are being tested as part of DOJ's overall Y2K readiness 
validation and verification processes.
    I would like now to address your topics from the viewpoint of the 
leader of the working group for Police/Public Safety/Law Enforcement/
Criminal Justice of the President's Council on Year 2000 Conversion. 
That group title is a mouthful that covers an extraordinarily wide 
spectrum of activities and entities. The activities include not only 
all that we usually associate with police, but all of the criminal 
justice enforcement dimensions of environmental laws and regulations, 
Federal lands and waterways management, and the public safety 
dimensions of mass transit systems and infrastructure. The entities 
include not only those that are part of state governments, but those 
that exist at county, city, and township levels. In the case of just 
police, the entities number into the tens of thousands, because almost 
all of the smallest villages and towns, like their big-city brethren, 
have their own police departments. Those departments may consist of 
just a chief and a deputy, but it's still a separate police department 
with dispatch and recordkeeping.
    What is important to note for this ``sector'' of the nation, is 
that the smaller the police department, the more of them there are, and 
the more they rely on parties outside the Department for their 
information technology services and support. They look for their Y2K 
leadership and support to their municipal governmental structures and 
to their state capitols. To the extent that DOJ's Office of Justice 
Programs reaches down to the township level in grants administration, 
and our U.S. Marshals Service and INS work with local sheriffs on 
housing Federal prisoners or detainees in local jails, we have had the 
opportunity to interact at this smaller-entity level. As Mr. McEwen 
will indicate, the FBI's interactions are particularly strong at the 
state government level, and rely, for example, on state police entities 
to ensure that the NCIC links to the municipalities in the state, which 
are on state-operated networks, will transition smoothly to January 1, 
2000.
    As you may know, the working group includes several different 
Federal agencies. Two principal common elements are the enforcement of 
Federal statutes the violation of which carries criminal sanctions, or 
a mission-partner involvement with state and local law enforcement 
agencies. One working group member, the Postal Inspection Service, is 
in the group because of the first element, while the Federal Highway 
Administration is with us largely because of the second element. The 
greatest emphasis on state and local Y2K readiness has come from the 
agencies that have the most state and local mission partner 
interactions or are the most effected by what state and local agencies 
do. Let me give you a brief sketch of some of the more prominent 
endeavors.
    In the case of the Federal Highway Administration, they recognize, 
as do we in DOJ that problems in traffic signal systems could tie up 
police officers until the problems are resolved. That could prove at 
least as troubling as the traffic disruption from an electrical outage. 
Because of the possible scope and impact of signal system malfunctions, 
such as confusing work days with a weekend days, the FHwA has been 
going to great lengths to advise city roads and highway administrators 
about possible problems with specific devices and systems, and 
strategies for their remediation. Of all of the working group 
participants other than DOJ, the FHwA has the most potential impact on 
state and local law enforcement even though those agencies are not its 
mission partners. They have been doing a thorough job of state and 
local agency awareness, but I have the impression that the critical 
issue now for state and local administrators is the size of the 
available pool of engineering expertise. If the demands on that pool 
exceed its capacity, some remediation efforts will be pushed beyond 
January 1, 2000, even though jurisdictions may have the funds available 
before the year-end.
    Similarly, the Coast Guard and Interior Departments have been 
working extremely hard with their respective state and local mission 
partners to do more than just communicate Y2K awareness, but to 
interact with them to pursue actual readiness, as DOJ has been doing 
with its mission partners. In the case of the Coast Guard, the focus is 
on port operations and navigation systems. The Interior Department 
plays a major role in certain parts of the country and in certain 
states, such as Utah. Interior operates major dams and hydroelectric 
systems, road and communications systems, and other activities that 
fall under such components as the Bureau of Reclamation, Bureau of Land 
Management, and Bureau of Indian Affairs. Many of these involve 
embedded chips, which is why the Interior Department has created an 
office specifically to address the Y2K embedded chip issues for 
Interior-operated systems. I believe that the Interior Department has 
been working very hard on awareness and remediation, especially 
concerning embedded chips.
    In recognition of the potential impact on law enforcement of 
problems with water and sanitation systems, the Environmental 
Protection Agency (EPA) was included in our working group. It enforces 
statutes involving criminal sanctions, as well as operates mission-
partner activities with all of the states. The EPA has been 
particularly concerned with the avoidance of major Y2K anomalies not 
only in water and sanitation systems, but also in industrial chemical 
discharges into the air or water. I believe that EPA has done a 
magnificent job of Y2K awareness with its state and local mission 
partners, and has been addressing regulatory provisions that can 
stimulate Y2K readiness by industrial operations that fall under its 
discharge reporting regimens.
    In a similar vein, the Agriculture Department's Food Safety and 
Inspection Service (FSIS) has an enforcement mission that recently 
joined our working group. Should problems arise with food supplies, 
like water supplies, state and local law enforcement agencies might be 
called upon to provide protective services at warehouses or retail 
outlets. In an effort to obviate this, the FSIS has been pursuing a 
systematic Y2K food industry readiness campaign, starting with the 
largest corporations and working down the size pyramid to the smaller 
suppliers and outlets.
    Additionally, our working group has had the earnest participation 
of the Department of Defense (DOD), and I am deeply appreciative of the 
DOD's support. In the Y2K context, I view DOD in two ways. First, DOD 
operates many facilities in the U.S. with weapons systems that employ 
computers. Should something go wrong with any DOD weapon, 
manufacturing, or discharge system on or just after January 1, 2000, it 
is conceivable that law enforcement agencies might have to assign 
resources to deal with the event. On the positive side, National Guard 
organizations represent an immediately available pool of trained 
personnel who can be tapped to assist state and local law enforcement 
should such assistance be needed. If the situation warrants, Active and 
Reserve forces could also be brought to bear. I do not anticipate such 
need, but it is comforting to know that our nation has these resources.
    Your invitation asked also that I speak to assessment, readiness 
concerns, and recommendations.
    In light of what I have described above for the Police/Public 
Safety/Law Enforcement/Criminal Justice Working Group, any efforts 
toward assessment need to be more narrowly drawn, so as to focus on 
aspects that are reasonably homogeneous in mission and size. In this 
context, I would like to speak specifically to law enforcement, as 
comprising state and local agencies staffed with sworn officers having 
the power of arrest.
    As I noted above, just these entities number into the tens of 
thousands when one includes all the tiny departments in towns and 
villages, all the sheriffs, and all the entities with police powers 
that aren't responding to domestic calls, such as transit police and 
park police. Most of these entities receive all of their funding from 
local or state legislative bodies. Perhaps even more significant, most 
receive all or the bulk of their computer support from sister agencies 
in their local or state governments that provide computer services and 
support and that possess computer expertise. Very few small law 
enforcement entities have their own computer expertise. Many do not 
even operate their own dispatch systems, but share dispatch operations 
with local fire and ambulance services.
    We have made available our assistance to independent, non-
governmental entities in which local governments participate, in the 
formulation of their own Y2K support endeavors. Those endeavors include 
the development of guidance publications, such as issued recently by 
the International Association of Chiefs of Police, and assessment 
surveys such as the one about to be conducted by the National 
Association of Counties.
    Quite apart from the formal assessment activities of surveys, we 
get feedback of an informal and anecdotal nature from our mission 
partners in the conduct of our mission activities. Because the FBI has 
the most such interactions, I will let Harlan McEwen share with you 
their sense of where things stand with their mission partners. In 
general, the assessment picture appears to be one where there is now 
widespread awareness in the law enforcement community of what the Y2K 
problem is and what needs to be done, generally, to remedy it. In the 
larger metropolitan agencies and at the state government level, there 
is usually an in-house capability to identify and remediate Y2K 
vulnerabilities. In the smaller agencies, that identification and 
remediation must come largely or sometimes entirely from sister 
entities that have computer budgets and expertise, and that usually 
provide computer services to multiple governmental activities.
    It is my view that when one looks at municipal law enforcement 
agencies, apart from the Federal and state interactions that I have 
addressed above, one sees basically three activities. The first and 
most important is a presence on city streets and neighborhoods. 
Generally speaking, that comes down to automobiles with gas in their 
tanks and officers reporting for duty. The word about Y2K has gotten 
out sufficiently that most agencies will have their officers all 
available for duty if not actually reporting for duty on January 1, 
2000.
    The second activity is communications. This involves the dual 
aspects of radio dispatch and the ability of mobile units to operate 
with their dispatchers. Unfortunately, it is in this area that the 
embedded chip issue most affects local law enforcement. You have 
already heard from various sources about the issue of embedded chips, 
which affects much more than just communications devices. I wish I 
could give you assurances that all law enforcement agencies of all 
sizes will have on December 31 dispatch systems and mobile radio unit 
devices that are Y2K ``certified'' by their manufacturers. The good 
news is that many of these systems and devices that are not so 
certified will nevertheless operate satisfactorily. Within DOJ, we have 
given careful attention to our own land mobile radio systems to ensure 
their Y2K readiness.
    The third activity of local law enforcement entities that has Y2K 
vulnerabilities is recordkeeping. This is the activity area most 
associated with Y2K and computers. The Y2K problem is usually couched 
in terms of date computations in the context of records, such as the 
age of a person, or the expiration of a warrant, or the determination 
of a date for release of a convict from jail. It is for these 
recordkeeping activities that small law enforcement agencies rely most 
on services and support from outside their own agencies. Even in those 
agencies where a recordkeeping system resides in a desktop computer 
inside the agency office, the design and programming of the system as 
well as its maintenance has probably been done by someone not on the 
agency payroll. The design, programming, and maintenance have probably 
been coming from either a governmental counterpart to the Federal 
General Services Administration or from non-government contractors. The 
Y2K remediation of these recordkeeping systems is almost always a 
matter of funding, and the funds are entirely local or state or a 
combination of state and local. I am hopeful that the National 
Association of Counties survey that we understand is soon to be taken 
will give us all some insights into this activity area and confirm our 
belief that law enforcement and public safety sector is sufficiently 
addressing Y2K readiness.
    Regarding your fourth question, about specific concerns the 
Department or the working group has regarding the Y2K readiness of 
state and local law enforcement, I would like to offer a few 
observations. In particular, I am somewhat concerned about the 
possibility that state and local law enforcement agencies may be called 
upon to deal with Y2K-related problems that may fall outside their 
sphere of professional preparation. As we all know, when a cat gets 
stuck in a tree or a rabid animal is seen in a neighborhood, the police 
get the call for help. Law enforcement agencies are viewed by the 
public as a first line of defense and protection against almost 
anything that is perceived as dangerous or upsetting. The police can't 
possibly anticipate everything that the Y2K bug may bring to their 
communities that will produce a call from a distraught citizen, but 
they will be willing and able to handle the many challenges brought to 
them.
    To summarize, what state and local law enforcement will need on 
January 1, 2000, are highly visible uniformed officers with Year 2000 
compliant radios. That date may bring a need for more men and women 
than are on an agency's payroll, particularly if they have to perform 
significantly more time-consuming tasks such as traffic management, in 
which case state and local governments may wish to consider using 
auxiliary or reserve personnel, including retirees still in the local 
area.
    This brings me to your final question seeking recommendations for 
Congressional or governmental actions that might have a positive impact 
for state and local law enforcement. I believe that the Congress has 
been pursuing important actions in providing maximum incentives for the 
manufacturers of communications devices and systems with embedded chips 
to make full disclosure of their products' Y2K vulnerabilities. Nothing 
will affect law enforcement more than problems with radio dispatch 
operations, traffic signal systems, or with devices such as building 
security systems. Next to these, and the possible effects of such 
unusual major events as a chemical manufacturing plant malfunction, the 
computer-based law enforcement recordkeeping systems are relatively 
minor by comparison.
    Thank you for this opportunity to share with you my observations on 
the Y2K readiness of state and local law enforcement. I welcome your 
questions.
                               __________

       Responses of Stephen R. Colgate to Questions Submitted by

                            Chairman Bennett

    Question 1. You mentioned in your testimony that at this point the 
awareness level about Y2K in local law enforcement appears to be fairly 
high. That being said, what impediments to Y2K preparedness remain for 
local law enforcement?
    Answer. We have no concrete reason to believe that there are 
impediments of such magnitude as to cause national concern. We believe 
that such impediments as may be found are (1) funding limitations and 
(2) the available supply of trained technical human expertise. We have 
been working closely with our state and local mission partners for many 
months, in all states, and these impediments are the only two that have 
been mentioned. They have not been mentioned universally--only 
occasionally.
    Question 2. You mention in your testimony the extensive contact 
that the Justice Department has with its state and local partners in 
the law enforcement area. Has funding for Y2K been an issue for local 
agencies? Have there been many requests for federal funding from the 
local law enforcement agencies for Y2K?
    Answer. As noted above, funding has been mentioned anecdotally and 
in the context of informal interactions. However, we have seen no 
formal requests for federal funding.
    Question 3. One of the reasons we invited you here today is the 
Committee's concern about the absence of any substantive assessment 
information on the status of local law enforcement in the quarterly 
assessment report of the Year 2000 Conversion Council. What will be 
done to remedy this?
    Answer. We are attaching to this set of questions and answers the 
full text of the assessment report that we sent to the Council for its 
July Quarterly report. We believe that it contains much substantive 
information. We understand the Committee's concern, and trust that this 
assessment report will alleviate that concern.
    Question 4. Your testimony highlights a good level of activity on 
the part of the Justice Department to reach its partners. What we 
really need to hear about is what is being said at the other end of 
this equation. How can the comments and concerns of the state and local 
agencies best be captured and conveyed back to us?
    Answer. We will continue to send to the President's Council our 
formal periodic assessment reports, which we understand are shared with 
the Committee, and related reports such as our quarterly readiness 
reports and our reporting on high-impact areas such as the FBI's 
National Crime Information Center. Additionally, we keep the Council's 
Chair, John Koskinen, apprised of significant items that come to our 
attention from activities such as end-to-end systems testing with local 
entities. The local concerns we have heard thus far deal with matters 
that are between local law enforcement agencies and the local 
governments of which they are a part and that provide their resources. 
I believe that such comments and concerns can best be captured and 
conveyed by parties with a state and local focus, such as the 
professional and state/local associations, e.g., the International 
Association of Chiefs of Police, and the U.S. Conference of Mayors.
    Question 5. While your statement indicates that a fair amount of 
activity on Y2K has occurred in the law enforcement area nationwide, 
there appears to have been no attempt to analyze the impact these 
activities have had, nor to provide any road map regarding the 
remaining problems or firm indications of who else needs to be helped. 
How can we remedy this?
    Answer. It is unfortunate that our assessment reporting to date has 
given the impression of lack of analysis, road map, or indications of 
needed help. We hope that our July Assessment Report, attached, will 
show that considerable analysis has indeed been done. As the report 
notes, we are about to engage in the end-to-end testing of systems that 
reach well into local agencies. We anticipate learning very much in 
that process. Our goal is that it will be a smooth, reassuring 
experience, and we anticipate reporting our findings in the next 
quarterly assessment report. We will be encouraging other Federal 
Government agencies with systems interactions at the local law 
enforcement level to pay similar attention to their findings and the 
reporting of those findings.
    Question 6. We appreciate the fact that local law enforcement is 
indeed a huge sector, but it certainly is no larger than that of the 
small business sector of our economy, and surveys have successfully 
been done in that area. Have you devised a strategy for at least 
conducting some type of limited survey?
    Answer. We believe that no survey can reveal as much as is revealed 
in the process of the end-to-end testing of operational systems. That 
process includes all mission partners, the selection of a 
representative sample, and then the in-depth interaction with the 
selected entities that comprise the sample. Just as the DOJ has been 
conducting end-to-end testing of its systems, so will the other Federal 
Government agencies with whom local entities interact. A recommended 
strategy would be to focus on the compilation and reporting of what is 
learned in end-to-end systems testing. I will be addressing this within 
the Sector Working Group that I chair.
    Question 7. In general, across most industries, professional 
associations have been the workhorses in Y2K preparedness in many ways. 
How would you rate the responsiveness of the professional law 
enforcement associations on the Y2K issue?
    Answer. We have been most pleased with their responsiveness. We 
especially direct the Committee's attention to the work of the 
International Association of Chiefs of Police, and the fine document 
that is posted on the association's World Wide Web site. We note that 
this association has a larger full-time staff than many other 
associations in the law enforcement community, and has more resources 
to devote to the issue. When viewed in the context of their resources 
and the mix of issues that they are confronting, we are gratified by 
the responsiveness on Y2K of all of the associations with which we have 
dealt.
                               __________

        Prepared Statement of Vice Chairman Christopher J. Dodd

    911 is the national life line that allows Americans to reach out 
for help from wherever they are. Americans use 911 more than 300,000 
times every day to access emergency services, law enforcement and 
medical services. While we all recognize the contribution that 911 
systems make to public safety, few of us recognize how advanced the 
technology underpinning these systems have become. Dialing 911 gets a 
caller to a Public Safety Answering Point (PSAP). When that 911 call 
comes in to the PSAP, the phone number and location of the caller is 
transferred from special location databases and displayed at a computer 
console where an attendant verifies the accuracy. Each 911 call that 
reaches a PSAP is handled according to its location and nature. 
Typically, calls are then referred to law enforcement, emergency 
medical services, or local fire departments. The telecommunications 
industry has gone to great lengths to assure that 911 calls will not be 
disrupted by Y2K related problems. But the telephone companies can only 
ensure delivery of the calls to the PSAPs.
    However, I would like to point out that we potentially have a very 
serious problem on our hands. The Y2K readiness of America's Public 
Service Answering Points may be in jeopardy. Recent survey information 
from the United States Fire Administration found that approximately 16% 
of the nation's PSAPS were ready. The Fire Administration surveyed over 
4300 PSAPs and received answers from only 766 PSAPs. So, we have no 
idea how prepared 3534 critical answering points are for Y2K. Of the 
less than 20% of the answering points that responded 16% say they are 
ready. If these systems are not repaired they will increase response 
time and present a grave risk to the public.
    Of the surveys they did receive, the Fire Administration was 
surprised to learn that only 40% of the responding organizations had a 
contingency plan. I quite frankly am a little surprised that such a 
critical link in the emergency response chain would not have 
contingency plans. I have had a chance to review some of these survey 
responses. The respondents consistently cite a lack of leadership, lack 
of funding, concerns about interdependency and the failure of vendors 
to supply compliance information.
    Y2K failures in public safety answering points have the potential 
to hinder police and emergency responders from protecting our families. 
We cannot allow a lack of awareness about Y2K or a lack funding to 
compromise public safety. We need to find out exactly what the 
readiness problem is with the public safety answering points. One 
possible problem is that PSAPs are not regulated by anyone and there is 
no single entity charged with coordinating a nationwide assessment and 
prompting remediation.
    The lack of 911 readiness may be symptomatic of larger problems in 
law enforcement. When the President's Council released its second 
quarterly assessment on April 21st there was no assessment of law 
enforcement. We hope that this hearing will help ``turn up the heat'' 
as one might say in police jargon, and to encourage more activity in 
this area. I look forward to learning how the Department of Justice 
will reach out to the law enforcement community and help them address 
Y2K.
    I am pleased to have Commissioner Michael Powell with us today. 
Commissioner Powell you have been doing excellent work on this issue. I 
understand that you will be presenting some updated information 
regarding PSAP readiness. I look forward to getting an update on these 
numbers. Commissioner Powell, the Chairman and I have written you a 
letter asking for help. While neither agency currently has any 
regulatory authority over the PSAPs, the Committee believes that a 
collaborative FCC and US Fire Administration effort could provide the 
critical leverage needed to reach this community. In fact together the 
FCC and the Fire Administration can hand the state Y2K coordinators or 
emergency managers a list of possible problem PSAPs. This will provide 
the states a valuable tool to ensure that the public does not suffer in 
any tangible negative effects because of Y2K.
    I also want to welcome Chief John S. Karangekis of Wethersfield, 
Connecticut. Chief Karangekis is president of the Connecticut Police 
Chiefs Association and will give the Committee specific insight into 
the challenges local law enforcement face in arresting Y2K problems.
                               __________

                Prepared Statement of John S. Karangekis

    OVERVIEW

    Informal survey of a cross section of police agencies in the State 
of Connecticut reveals that agencies vary in their level of progress to 
remediate Y2K issues prior to the turn of the century. There is 
consensus that it is imperative that each law enforcement agency show 
due diligence in their efforts to mitigate any adverse impact resulting 
from non-compliant technology. It is believed that the Connecticut 
experience is likely similar to that of other law enforcement agencies 
throughout the country.

    The majority of large cities and towns in Connecticut appear to be 
ahead of some smaller communities in addressing the issues. It is clear 
however that all law enforcement agencies recognize the importance of 
due diligence and are actively addressing those issues in their own 
communities. A recently released Y2K Readiness Report distributed by 
the State of Connecticut, Department of Information Technology, 
regarding Y2K remediation efforts, gave strong indicators that only 
minimal adverse impact is expected. Utilities, water systems, petroleum 
and natural gas providers surveyed indicate that their services are 
either currently Y2K compliant or will be December 1999. The majority 
of those services will have contingency plans before the end of 1999. 
Most significantly, it appears that telephone service, E911 and other 
law enforcement technologies will be operational.

    Like many communities, Weathersfield has initiated a town-wide Year 
2000 Readiness Committee consisting of representatives from each town 
department or division. Individual departments determine Y2K compliance 
and remediation needs in their own department. Technologies that 
network with or interface in-house or with other town departments, or 
technologies that network or interface with outside agencies at the 
state or federal level, are identified and evaluated for compliance. At 
the present time, approximately 80% of all town and police technology, 
including computers, telecommunications, alarm systems, internal data 
systems and records systems are Y2K compliant. Progress is being made 
through follow-up, software upgrades, and/or replacement. Due to 
delays, ascribed to vendors' reluctance to provide clear information 
regarding their products, some technology has yet to be classified.

    CONTINGENCY PLANNING

    Regardless of perceived level of Y2K compliance, it is imperative 
that law enforcement have in place adequate contingency plans to 
address failures that may occur. During the initial Year 2000 turnover 
sufficient safeguards must be in place to insure public safety and the 
orderly maintenance of government. The delivery of services must not be 
significantly compromised during the turnover in the event that some 
failures occur.

    It is the consensus of public safety officials that the majority of 
their technology will be Y2K compliant prior to the Year 2000. The 
first 72 hours of the rollover will be the defining test period. 
Minimal technological failures will not significantly impact the 
ability of law enforcement to maintain order or respond to the needs of 
the community.

    LAW ENFORCEMENT CONCERNS

    1. The failure or delay in gaining specific information from 
various vendors as to the Y2K status of their equipment.

    2. Reluctance of vendors to guarantee Y2K compliance.

    3. Possible panic reaction by community residents prior to the 2000 
turnover.

    4. Significant costs associated with contingency planning, staffing 
and costs of updating hardware and software.

    5. Developing emergency funding resolutions through grants.

    INFORMATION RESOURCE

    The International Association of Chiefs of Police recently 
conducted a survey of their membership relative to the Year 2000 
readiness of law enforcement. The study resulted in the compilation of 
a 27 page document that has proven to be an invaluable resource for 
addressing Y2K public safety issues. The document is available on the 
IACP Web Page (www.theiacp.org).
                               __________

                 Prepared Statement of Harlin R. McEwen

    Good Morning. I am Harlin R. McEwen, Deputy Assistance Director, 
Criminal Justice Information Services Division, of the Federal Bureau 
of Investigation (FBI). I am pleased to have this opportunity to inform 
you of the work we have been doing at the FBI as it relates to 
assisting state and local law enforcement on the topic of Year 2000 
(Y2K) readiness in their Criminal Justice Information Systems.
    As a former city police chief of over 20 years, and as Chairman of 
the Communications & Technology Committee of the International 
Association of Chiefs of Police (IACP), I have been personally involved 
in educating and assisting state and local law enforcement agencies on 
Year 2000 matters for the past four to five years.
    At the FBI we have taken a very proactive role in keeping the Y2K 
issue before the state and encouraging them to plan for and institute 
changes to make their systems compliant with our nationwide systems. In 
the FBI Advisory Policy Process, our primary interaction is with the 50 
State Control Agencies (CTA) who are responsible for providing the 
appropriate interconnect with the FBI Systems and for providing the 
necessary statewide systems and access for state and local agencies to 
the FBI Systems.
    The following is a chronology of the actions by the FBI to assess 
the readiness of the state CTAs and to insure they were aware of the 
consequences if state systems are not ready for the data change.
    Spring, 1996
    The FBI Criminal Justice Information Services (CJIS) Division 
prepared a staff paper for the Advisory Policy Board (APB) Working 
Group meetings presenting the Y2K issue and proposing alternatives for 
compliance. The Working Group recommended converting all dates in the 
NCIC System to the Y2K format. This recommendation was approved by the 
APB at the June, 1996 meeting.
    September, 1997
    The FBI CJIS Division and the Information Resources Division (IRD) 
hosted over 400 state and local criminal justice agency representatives 
at the NCIC 2000 Technical Conference in Tulsa, Oklahoma. At this 
Conference the timetable and formats for the Y2K data were presented 
and the need to plan for necessary changes was stressed.
    September 25, 1997
    The FBI CJIS Division sent a Technical and Operational Update to 
the states informing them of the timetable and formats for the data 
changes.
    January, 1998
    The FBI CJIS Division surveyed the states and requested information 
regarding the readiness of the states for NCIC 2000 and Y2K compliance.
    July, 1998
    At the request of the CJIS Advisory Policy Board, the states were 
sent a letter explaining the Y2K schedule and the consequences of not 
being compliant with the nationwide systems by July, 1999. The letter 
enclosed a form requesting the agency head sign a statement 
acknowledging that the schedule and consequences are understood. All 
states responded with a signed statement. The District of Columbia did 
not respond.
    December, 1998
    The District of Columbia Metropolitan Police Department contacted 
the FBI CJIS Division and indicated they were having difficulty with 
Y2K compliance and requested FBI assistance. The FBI CJIS Division and 
Information Resources Division responded to the District with technical 
consultants and the conversion software developed by the FBI to convert 
NCIC dates. Subsequent to this, the city government provided the 
department with resources and we have been assured that the situation 
is under control. This is particularly critical because the District of 
Columbia Metropolitan Police Department provides the interface to the 
FBI Systems for all law enforcement agencies in the District. This 
includes all DOJ components such as the FBI, the Drug Enforcement 
Administration (DEA), the US Marshals Service, the Immigration and 
Naturalization Service, and the Bureau of Prisons (BOP). It also 
includes the Treasury Law Enforcement agencies such as the US Secret 
Service, Bureau of Alcohol, Tobacco and Firearms (BATF), US Customs, 
and other agencies like the US Park Police and the US Postal 
Inspectors.
    November, 1998--April 1999
    The FBI CJIS Division and IRD have been conducting External 
Interface Checkout (EIC) testing with all states. The states have been 
strongly encouraged to use Y2K compliant data formats in these tests. 
However, it has not been mandatory as some states are still in the 
process of converting their software or have contracts with work in 
progress to make their systems Y2K compliant.
    February, 1999
    The FBI CJIS Division hosted over 400 state and local criminal 
justice agency representatives at the Integrated Automated Fingerprint 
Identification System (IAFIS) Technical Conference in Los Angeles, 
California. At this Conference the timetable and other issues related 
to Y2K issues were presented and the need to plan for necessary changes 
was stressed.
    February--May, 1999
    The CJIS Division and IRD are conducting Site Operational Tests 
(SOT). Those states which did not use Y2K compliant date formats in EIC 
are required to do so in SOT.
    July, 1999
    NCIC 2000 and IAFIS are scheduled to be fully operational, Y2K date 
formats are mandatory.
    The FBI is prepared to offer assistance to a state that indicates 
they are having difficulty with Y2K compliance. We have encouraged them 
to come to us if they have problems. The response will be dictated by 
the circumstances, the particular needs of the state involved and the 
resources available at the time. We have been advised that all states 
are following a plan of action to get their systems compliant. However, 
as in all endeavors, they must succeed in that plan in order to avoid 
the consequences of noncompliance. Such consequences range from loss of 
some services to complete system failure. While some states have a very 
close time schedule, the only agency to have contacted the FBI and 
requested direct assistance has been the District of Columbia.
    Thank you for this opportunity to inform you of the work the FBI 
has been doing to assist state and local law enforcement in getting 
ready for Y2K. I welcome any questions.
                               __________

        Responses of Harlin R. McEwen to Questions Submitted by

                            Chairman Bennett

    Question 1. You testified that as Chairman of the Communications 
and Technology Committee of the International Association of Chiefs of 
Police (IACP) that you have personally been involved in educating and 
assisting state and local law enforcement agencies on Y2K matters for 
the past four to five years. That is extremely commendable. What 
significant outreach activities has the IACP performed during this 
period? What have been the critical areas you have found that required 
education and assistance? What remains to be done?
    Answer. The IACP has been active in educating the law enforcement 
community on Y2K issues. The IACP has prepared a brochure entitled 
``PREPARING LAW ENFORCRMENT FOR Y2K''. The IACP has widely disseminated 
this brochure to Police Chiefs and other law enforcement officials 
throughout the country. The IACP has also conducted workshops at the 
Annual Conferences, published Y2K related articles in ``The Police 
Chief Magazine'' and arranged for presentations on Y2K at various 
Committee Meetings. The most critical areas of discussion from 
participants has been the ``unknown'' in what are generally very 
complex communications systems. Many Police Chiefs report they are not 
able to reasonably assess or identify the potential problems and 
therefore it is difficult to attempt to solve them. At this late stage, 
the IACP approach has been to recommend contingency plans in the event 
of system failures.
    Question 2. A great deal of information is known about the 
readiness of those information systems and support services systems 
managed by the FBI, for which state and local government are primary 
``customers.'' What centralized assessments have been made of 
individual systems managed directly by local law enforcement agencies? 
Many of these systems connect to federal and state criminal information 
systems in various ways, what is known about these interconnections? 
What plans are there to perform end-to-end testing of these systems and 
their connections?
    Answer. As I explained in my testimony to the Committee, the FBI 
manages the national systems on behalf of state, local, and federal law 
enforcement and must depend upon a single point of contact in each 
state and in the federal systems. We rely upon the states to administer 
the statewide networks which connect to the FBI national systems and 
the FBI does not have the resources to deal directly with the over 
17,000 law enforcement agencies nationwide. On Sunday, July 11, 1999, 
the FBI activated the new NCIC 2000 systems which required that the 
states be Y2K compliant to work with the new NCIC 2000 protocols. With 
some minor exceptions the new NCIC 2000 system is performing to 
expectations and all states are communicating with the new system. In 
preparing for actual Y2K many states have been pro-active in conducting 
statewide user conferences and in surveying local agencies in order to 
inform them of potential problems, assess their situation, and assist 
in solutions where possible.
    Question 3. The FBI is responsible for administration of the 
National Crime Information Center and has assured Committee Staff that 
this system will be fully able to meet its Y2K challenge, and that its 
links to the systems of all 50 states will remain fully operational. 
What type of independent verifications and validation has been done in 
this area? What plans are there for end-to-end testing of this system 
to ensure its operational capability? Given the criticality of this 
system, what type of continuity of operations and contingency planning 
has been done?
    Answer. Please refer to the Answer to Question #2. A contingency 
plan was prepared by the FBI in preparation for the activation of the 
NCIC 2000 system on July 11th and FBI plans to use the same basic 
contingency plan for Y2K problems at year 2000 start.
    Question 4. You noted the proactive role the FBI has played in 
encouraging states to plan for Y2K and make necessary changes to their 
systems. How receptive have the states been to the FBI in this role? 
What changes have you encouraged them to make? In your estimation, how 
have the states been in completing, implementing, and testing these 
changes?
    Answer. Most of the states have been very receptive and 
cooperative. The states have been very responsive in completing, 
implementing and testing recommended changes.
    Question 5. What are the consequences if state control agencies' 
(CTAs) systems are not ready for Y2K?
    Answer. Loss of service. Although we are hopeful that will not 
happen, we have a contingency plan in place to handle, in the most 
appropriate manner, the specific state problem.
    Question 6. You noted that the FBI stands ready to assist states 
that indicate they are having difficulty with Y2K compliance and have 
encouraged them to come to you if they have problems. The District of 
Columbia has requested direct assistance. What type of response have 
you had from the states in this regard? Do you anticipate any 
particular assistance requests that will require additional resources?
    Answer. The response from the states has been very good. There may 
be some additional requests for assistance during the remainder of 1999 
and if the FBI receives any we will respond accordingly.
    Question 7. You have been advised that all states are following a 
plan of action to get their systems compliant with a very close time 
schedule. Is the FBI tracking progress of the states in some manner? 
Could you briefly explain? Do these action plans include business 
continuity and contingency planning in addition to independent 
verification and validation (IV&V)?
    Answer. We are tracking the progress of the states and as I 
reported in my testimony we have conducted a state by state visit to 
get updated information and offer assistance where appropriate. This 
survey was conducted on a voluntary basis and with the understanding 
that we had no role in reporting state readiness to the public. This 
allowed for candid response and allowed us to be of assistance. It 
should also be noted that this survey is considered a ``snapshot in 
time'' and we have already seen significant progress in the efforts of 
those states requiring attention. As noted in my answer to Question #2 
we have already activated the FBI NCIC 2000 system on July 11th and 
that gives us further assurance that the states will be ready for Y2K. 
Following is a summary of the results of that survey:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

                Prepared Statement of Michael K. Powell

    Thank you for the opportunity to be here today. As you are well 
aware, emergency services are crucial to the life and safety of 
Americans, and the Year 2000 (Y2K) Problem poses a real and palpable 
threat to the continued operation of these services. Unless providers 
of these services take appropriate steps to identify and remediate Y2K 
related problems within every facet of the emergency response process, 
Americans are likely to experience delays and perhaps even a failure of 
emergency response.
    At the FCC we recognize that emergency communications are crucial 
to the emergency response process. For over a year now we have had an 
aggressive campaign aimed at identifying the risks posed to these 
systems by Y2K and raising awareness of the potential problems with 
those entities that provide emergency services. Forums, speeches, and 
articles are just a few of the ways in which we have reached out, and 
continue to reach out, to this community.
    THE EMERGENCY COMMUNICATIONS SYSTEM
    Before elaborating on our efforts and the assessment of this 
sector, I would like to take a moment to describe for you the emergency 
communications system. There are four main components to emergency 
communications: 1) 911 call delivery; 2) call processing at the Public 
Safety Answering Point (PSAP); 3) wireless call dispatch; and 4) the 
Emergency Alert System (EAS).
    These four components are not part of a unified national system. 
Rather, there is extensive variation among the nation's counties, 
cities and towns in terms of the number, function and sophistication of 
the communications system employed. And any one system typically 
involves any number of components, each with a different set of vendors 
and suppliers, and each with potentially different regulatory or 
jurisdictional oversight. Yet, inasmuch as the system is comprised of a 
variety of systems, these systems must interoperate in order to achieve 
a successful response to an emergency.
    The figure on the following page demonstrates this graphically.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    There are approximately 300,000 emergency calls per day in the 
United States. The 911 Emergency Reporting System is the portion of the 
emergency communications system that enables a caller to dial a common 
three-digit number for all emergency services. Today, some form of 911 
covers over 90 percent of the population.
    Enhanced 911 (E911) is an advanced form of the basic 911 service. 
With both wireless and wireline E911, the telephone number of the 
caller as well as other stored information about the location of the 
caller is transmitted to the Public Safety Answering Point (PSAP) where 
it is cross-referenced with an address database to automatically 
determine the caller's location. The emergency dispatcher can then use 
this information to direct public safety personnel responding to the 
emergency.
    1. 911 Call Delivery
    The first step in an emergency communication involves delivering 
the call from the person reporting the emergency to the appropriate 
dispatch center as indicated by the Number 1 on the figure. 911 call 
delivery is a traditional telecommunications service provided by the 
local telephone company. Remediation and testing of the switching and 
transmission equipment used in 911 service is part of the overall 
remediation efforts currently underway by the telephone companies. It 
is important to note that unlike other segments of the emergency 
communications process, the FCC has direct authority over the companies 
that route this initial call.
    2. Call Processing at the PSAP
    The second step typically involves processing of the emergency call 
at the PSAP as indicated on the figure by the Number 2. This step 
primarily involves computer processing and often employs sophisticated 
systems and software. At the PSAP, the operator verifies or obtains the 
caller's location, determines the nature of the emergency, and decides 
which emergency response teams should be notified. In most cases, the 
caller is then conferenced or transferred to a secondary PSAP from 
which help will be dispatched. Secondary PSAPs might be located at fire 
dispatch offices, municipal police headquarters, or ambulance dispatch 
centers. Often, a single primary PSAP will answer for an entire region. 
Communities without PSAPs rely on public safety emergency operators and 
communications centers to process these calls.
    The PSAP, either primary or secondary, is especially vulnerable to 
Year 2000 problems because it generally relies on sophisticated 
computer technology and then interconnects many private networks with 
different types of equipment. As mentioned previously, there is no 
single configuration for emergency communications, nor is there a 
uniform entity responsible for maintaining the system across the 
nation, or even within a particular state. Thus, unlike the routing of 
911 calls to the PSAP, which is under the control of the local 
telephone company, the processing of the call at the PSAP is controlled 
by a myriad of different entities, none of which have a regulatory tie 
to the FCC.
    3. Wireless Call Dispatch
    Upon processing the call, the PSAP operator or dispatch center will 
typically alert the appropriate emergency response team through a 
wireless land mobile radio system as is indicated by the Number 3 on 
the figure. During the emergency, these radio systems can be used by 
emergency units and officers at the scene to coordinate activities 
amongst themselves, with those units still on their way and with 
dispatchers and command bases. The FCC regulates the frequencies that 
these radio systems use, but the systems themselves are customer 
premises equipment sold directly to the local community by a vendor or 
vendors. Thus, it is the responsibility of the state and local entities 
using these wireless systems to inventory them for Y2K related problems 
and to remediate those problems that are found.
    4. The Emergency Alert System
    The Emergency Alert System (EAS), designated by the Number 4 on the 
figure, is also an important element of emergency communications. EAS 
is a national emergency communications system designed to give 
governments the ability to rapidly communicate with the entire 
population in times of national emergency.
    THE FCC's EMERGENCY SERVICE EFFORTS
    The FCC takes responsibility, for its part, to ensure that the Year 
2000 challenge vis-a-vis emergency communications is properly 
addressed. However, inasmuch as the FCC plays an important role by 
providing information and guidance to companies and critical users 
(including state and local authorities), encouraging companies to share 
information, and facilitating the development of readiness and 
contingency plans, the Commission's ability to address the Year 2000 
Problem is not without limits. Only private communications firms and 
consumers themselves have the ability to address properly the Year 2000 
Problem.
    For our part, for example, I convened the FCC's very first public 
forum on Y2K, on the issue of emergency services, in June 1998. 
Following on the heels of that forum, I felt compelled to promote 
further this and other important issues, by authoring Y2K awareness 
articles in as many periodicals as possible. So since the summer 1998, 
I have authored pieces for the trade magazines of the International 
Association of Fire Chiefs and the Association of Public Safety 
Communications Officials-International Inc., as well as a healthy 
number of telecommunications-related and general media periodicals. I 
have raised the Y2K issue, in this country and abroad, in numerous 
speeches. In fact, last week, I addressed the membership of the 
National Association of Broadcasters at a Y2K Super Session. In 
addition, FCC Staff members have reached out to numerous members of the 
public safety community to raise awareness and advocate action on Y2K. 
A compilation of our efforts to date is appended hereto as Attachment 
1.
    The FCC has also dedicated much of its Year 2000 efforts to 
monitoring and assessment of the communications industry's readiness 
activities including emergency communications. Through surveys, forums, 
meetings with the industry, information sharing with industry 
associations and public sources, such as congressional testimony by 
industry members, the FCC has been monitoring the industries' efforts 
to the Y2K challenge. In June and July 1998, the FCC organized several 
roundtables with representatives of different sectors of the 
communications industry to facilitate information sharing.
    A tremendously important contributor to this effort has been the 
Network Reliability and Interoperability Council (NRIC) which has 
advised the FCC on the status of the various communications industries' 
readiness. As you know, much of the information and data that is 
available to the public, even for areas of concern that are well beyond 
the FCC's regulatory purview such as foreign telecommunications 
providers and public safety communications, has been compiled by NRIC. 
To cite a specific example of this valuable partnership, on March 30, 
1999, the FCC in conjunction with NRIC issued its comprehensive Report 
on the Y2K-readiness. These data and other are continually refreshed as 
the FCC and NRIC develop a much fuller and well-developed understanding 
of the efforts of industry sub-sectors.
    With fewer than 246 days to January 1, 2000, we continue to develop 
strategies and approaches to raise industry awareness, to assess and 
monitor the industries' efforts, and to facilitate the development of 
effective contingency plans in the event that a disruption to any 
segment of the communications industry should occur. We will never lose 
sight of that mission.
    ASSESSMENT OF 911 CALL DELIVERY
    As previously noted, the FCC issued its comprehensive Y2K 
Communications Sector Report in March 1999. In our analysis, it was 
indicated that large local telephone carriers--accounting for 92 
percent of the total local telephone lines in the United States--had 
achieved 85 percent readiness of their central office switches as of 
January 1999. These major U.S. carriers are expected to be 100 percent 
ready by the second quarter of 1999. For their part, small to medium-
size carriers lag behind the readiness of their large counterparts and, 
on average, expect to achieve Y2K-readiness in the fourth quarter of 
1999.
    These are particularly important statistics because 911 service is 
provisioned over the public switched telephone network. In brief, 911 
calls are routed from the caller to the PSAP by the telecommunication 
network's 911 tandem switch. The 911 tandem switch is a part of the 
telephone company's network and is remediated, as required, as part of 
the telephone company's total Y2K-readiness effort. As a consequence, 
the readiness of 911 service is, according to the companies, on the 
same track as the rest of their remediation efforts.
    The Telco Year 2000 Forum, the Alliance for Telecommunications 
Industry Solutions (ATIS), and the Cellular Telecommunications Industry 
Association (CTIA) have engaged in testing of remediated 
telecommunications equipment, including 911 testing. In March 1999, the 
Telco Year 2000 Forum released the results of 1,914 tests and 
identified only 6 anomalies, none of which affected call processing. 
The Telco Year 2000 Forum tested 911 emergency call origination as part 
of four ``clusters'' of tests of remediated equipment and found no 
anomalies. On April 14, 1999, ATIS released the results of its efforts 
on inter-carrier interoperability testing, during which no Year 2000 
problems were reported. Finally, also in April 1999, CTIA released the 
results of its testing efforts, which focused on wireless-to-wireless 
and wireless-to-wireline, including 911 PSAP calls. In over 825 tests 
of equipment that that been assessed and remediated, if appropriate, no 
anomalies relating to the date change were reported.
    ASSESSMENT OF CALL PROCESSING AT THE PSAP
    PSAP equipment is not telecommunications equipment either under the 
direct jurisdiction of the FCC or within our area of expertise. We 
recognize, however, that emergency communications are essential 
elements at the front and back end of the process. Therefore, we have 
made every effort to raise awareness in this community of the potential 
dangers posed by Y2K.
    The assessment of the readiness of PSAPs is difficult in general 
due to the disaggragated nature of the control and ownership of this 
equipment. We recognize, however, that many telephone companies do have 
a contractual relationship within their area of service with PSAP 
owners, most commonly in the form of service and maintenance 
agreements. As a result, NRIC has made the study of PSAPs through these 
relationships one of its key study areas within Focus Group 2, the 
group that concentrates on customer premises equipment.
    The NRIC assessment was limited to the 8 largest telephone 
companies who were asked to estimate the number of PSAPs in their 
service area, the number of those for which there were service or 
maintenance agreements with the telephone company, and the number of 
those for which remediation was complete. On April 14, 1999, NRIC 
estimated that there were over 7,000 PSAPs total and that the 8 largest 
telephone carriers had some type of a service contract with 80 percent 
of the PSAPs in their territory. Of those, NRIC reported, only 10 
percent had been remediated. NRIC went on to recommend advising the 
public to have available the local emergency telephone numbers for 
police, fire, hospitals, and other emergency services in the event that 
the PSAPs experience difficulties and the public needs to contact 
emergency services directly.
    Since the time of the release of the NRIC Report, which was based 
on data gathered in February 1999, there has been an improvement in the 
number of PSAPs remediated within the service areas of the 8 largest 
telephone carriers. According to recent reports from the telephone 
companies, NRIC now estimates that there are a total of 6,739 PSAPs in 
the territory of the 8 largest telephone companies, and that the 
companies have service contracts with 81 percent of those, or 5,456 
PSAPs. Of that, 5,456, 35 percent of the PSAPs have now been remediated 
for 911 call processing. The telephone companies also report that they 
have contacted the remaining PSAPs in their areas with whom they have 
existing contracts and the they have either begun work or are waiting 
for the work to be initiated by the PSAP owner.
    While these numbers are encouraging, they do not take into account 
several important factors. First, the new numbers represent only 81% of 
the PSAPs within the territory of the 8 largest local telephone 
companies. Further, they do not account for the numerous PSAPs served 
by the over 1,200 small telephone companies around the country. Second, 
this assessment is only of PSAPs that have had 911 call processing 
remediation. It does not necessarily reflect efforts to remediate the 
wireless call dispatch side of the PSAP process, or other processes the 
computer may provide for a particular jurisdiction. And while the 
telephone companies bring expertise and experience to the problem, they 
too do not have any direct control over the PSAP and therefore cannot 
necessarily foresee all the ways in which Y2K may have an impact on the 
equipment.
    We also recognize that the numbers released by NRIC are not 
consistent with other data released on the overall number of PSAPs. I 
would stress that the NRIC numbers are only the companies' best 
estimate of the number of PSAPs in their footprint. The differences, 
however, only serve to point out the difficulties encountered in trying 
to get a handle on this issue.
    ASSESSMENT OF WIRELESS CALL DISPATCH
    Although the FCC has no direct control over the wireless 
telecommunications equipment used by various emergency response teams, 
we have made a concerted effort to identify where problems with this 
equipment may exist and to raise awareness of the need of each service 
provider to check their own equipment.
    Manufacturers report that analog and digital radio systems 
operating in unencrypted, conventional mode (non-trunked mode not 
involving computer switching) are not date-sensitive and therefore are 
not typically at direct risk for Y2K failure. According to data 
obtained by the Public Safety Wireless Network (PSWN), these systems 
are the kind operated by the vast majority of state and local public 
safety agencies, including nearly all smaller and rural agencies. For 
radios systems using computerized trunking, encryption, gateway and 
other advanced computerized features that are at higher risk for Y2K 
failure, manufacturers report that they are engaged in active user 
notification and remediation assistance programs. The major 
manufacturers controlling 90 to 95 percent of the public safety 
equipment market have reported that all new equipment now being sold is 
Y2K ready, and upgrades or remediation packages for all legacy 
equipment is now or will shortly be available.
    Certain advanced dispatch services such as computer assisted 
dispatch (CAD) may be at greater risk for Y2K failure, and we 
understand that replacing these complicated and expensive systems may 
take more than one year. This means that CAD systems identified now as 
non-compliant might not be able to be replaced before the year 2000. We 
understand from the industry, however, that failure of one of these 
systems, however, should not prevent manual, non-computer assisted 
emergency dispatch activities until the problem can be solved or a 
replacement CAD system obtained.
    THE EMERGENCY ALERT SYSTEM
    The Emergency Alert System (EAS) is also an important element of 
emergency communications. EAS is a national emergency communications 
system designed to give governments the ability to rapidly communicate 
with the entire population in times of national emergency. All 
broadcast stations and cable systems must participate in EAS; other 
communications providers may participate voluntarily.
    While the EAS system has never been used on a national basis, it is 
used frequently on a state and local level in times of severe weather 
or other localized emergency. EAS is structured so that messages can be 
injected into the system to alert the public. Industry volunteers work 
to develop EAS plans that use industry facilities in a coordinated, 
efficient and timely manner. For example, the National Weather Service 
digital signaling technique used on NOAA Weather Radio and the EAS 
digital signaling technique are identical.
    The EAS system only recently replaced the Emergency Broadcast 
System, and new equipment capable of receiving and decoding the EAS 
header codes and emergency messages was required to be installed at 
broadcast stations by January 1, 1997. Accordingly, virtually all EAS 
equipment is new and, according to statements by EAS hardware and 
software manufacturers, both the equipment and software is either 
compliant or if not compliant, is being updated and provided to 
customers. Participants at the Commission's Emergency Preparedness 
Forum confirmed these statements and the overall readiness of the EAS 
System. Nevertheless, participants did recommend that stations and 
systems take steps to ensure that they are staffed the night and the 
morning of December 31, 1999/January 1, 2000.
    CONCLUSION
    Successful emergency service operations require the coordination 
and function of many different technical systems and organizations. 
None can afford not to be Y2K-remediated. As such, with so relatively 
few days left until January 1, 2000, it is tremendously important that 
we collectively bring to bear the unique strengths and powers of 
Congress, the Administration, State and local governments, the Federal 
Emergency Management Agency, the U.S. Fire Administration, the 
Department of Justice, the FCC and all other interested stakeholders to 
address this critical issue.
    For the FCCs part, while the direct measures to address Y2K vis-a-
vis emergency communications frequently reach well beyond the agency's 
communications jurisdiction, we do not treat it as though ``it's 
someone else's problem.'' Indeed, Henry Kissinger once remarked, 
``competing pressures tempt one to believe that an issue deferred is a 
problem avoided: more often it is a crisis invited.'' We at the FCC 
look forward to contributing in whatever meaningful form to move public 
safety organizations towards meeting the Y2K challenge and averting any 
potential crisis.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

        Responses of Michael K. Powell to Questions Submitted by

                            Chairman Bennett

    Question 1. Commissioner Powell, it seems as the telephone carriers 
have done a good job of trying to reach out and prompt the PSAPs to 
make the necessary phone upgrades. However, even if the PSAPs customer 
premise equipment is fixed couldn't there still be problems with the 
other information systems that interface and distribute calls to the 
emergency responders?
    Answer. Yes. The ``other information systems that interface and 
distribute calls to the emergency responders'' consist, we are 
informed, of internal routing systems, computer assisted dispatch 
(``CAD'') systems and land mobile radio systems transmitting both voice 
and data. Because of the vast number of PSAPs across the country, each 
with a different mix of equipment elements, it is impossible to predict 
with any level of specific certainty all the theoretically possible 
modes of PSAP Y2K failure.
    Analog and digital land mobile radio systems of the kind operated 
by the vast majority of state and local public safety agencies are not 
date-sensitive and therefore are not typically at direct risk for Y2K 
malfunction. Radio systems that use trunking and other advanced 
computerized features are at higher risk for Y2K malfunction. However, 
manufacturers report that the Y2K vulnerabilities of most of this kind 
of equipment are well documented, and upgrades and remediation packages 
are available to agencies that have the resources to acquire them.
    Often these expensive systems cannot be remediated cost-effectively 
and must be replaced. Reversion to manual record keeping and 
dispatching, though slower and inefficient, is an available contingency 
method if a PSAP system fails. Internal routing systems also are of 
many different varieties and may or may not rely on computers that are 
susceptible to the Y2K Problem.
    The most vexing problem confronting even those PSAPs that have been 
diligent about Y2K preparation is that even though their individual 
equipment elements test as Y2K-ready, the interaction of all the 
elements together cannot be certified because the whole system is in 
operation twenty-four hours per day and cannot be safely taken offline 
to be tested.
    Question 2. In August, you published an article in a public safety 
communication magazine published by the International Associations of 
the Chiefs of Police. Did you or the FCC get a sense that the law 
enforcement community understood the risks they were facing from Y2K?
    Answer. It is difficult for us to say. Although the Federal 
Communications Commission licenses the radio systems in the possession 
of tens of thousands of state and local law enforcement agencies across 
the country, the agency is not the best situated to observe or describe 
the sate of understanding in the law enforcement community as a whole 
regarding the complicated Y2K issue. That being said, the Commission, 
along with other federal agencies like the Federal Emergency Management 
Agency and the Departments of Justice and Treasury, and organizations 
like the Association of Public Safety Communications Officers, 
International, the International Association of Chiefs of Police and 
the International Association of Fire Chiefs, have made significant 
efforts in the past sixteen months to alert the public safety community 
to the serious risks of the Y2K Problem.
    Many agencies, to their credit, have also responded to this 
important technical problem. For example, the Federal Bureau of 
Investigation, inaugurated its NCIC 2000 system last Sunday, July 11, 
1999. On July 28, 1999, that agency will begin operating its Integrated 
Automatic Fingerprint Identification System (``IAFIS''). Both systems 
provide nationwide electronic access to criminal record information for 
law enforcement. Every state has become qualified to participate in 
both systems, where qualification included a certification of Y2K 
readiness for each state's law enforcement computer system.
    Overall, the evaluations of Y2K awareness proffered by members of 
the law enforcement community indicate that most of the law enforcement 
agencies at the state level and in the larger metropolitan counties and 
cities, with larger budgets and technical staffs, are generally well 
aware of the Y2K Problem. Although progress is by no means uniform, 
many have designed or implemented Y2K remediation plans, contingency 
plans for their agencies and their jurisdictions, and are, or will be 
prepared for the millennial date rollover. We are told that it is 
likely, however, that many more smaller, more rural and more resource-
strapped agencies, despite the best efforts of many to reach them, are 
as yet still unaware of, unwilling or unable to address this problem.
    Question 3. You mentioned that the Public Safety Wireless Safety 
Network feels that small and rural radio systems are typically analog 
and as a result are less vulnerable to direct Y2K failure. Would it be 
safe to say that the fast growing counties and rapidly modernizing 
communities are at an increased risk from Y2K?
    Answer. In 1998 and 1999, the Public Safety Wireless Network 
conducted a survey of 3,398 of the more than 36,000 state and local 
fire and emergency medical agencies in the U.S. and found that 75% 
operated conventional, not trunked, radio systems. Approximately 90% of 
fire and EMS agencies with fewer than 50 personnel operated 
conventional mode radio systems. Because the majority of emergency 
service organizations do not rely on computerized switching or 
trunking, these systems, including both analog and digital systems, we 
are told by the industry that these systems are generally at low risk 
for Y2K malfunction.
    The same Public Safety Wireless Network survey found that nearly 
40% of fire and EMS agencies with more than 250 personnel employ 
trunked radio systems. These statistics support the theory that the 
public safety agencies in larger cities and counties and those that 
have upgraded their communications equipment to employ the most 
advanced features are at relatively heightened risk for Y2K malfunction 
of the date-sensitive computers and electronic components that provide 
those features.
    Question 4. How successful was the September 98 rulemaking on the 
development of operational and technical spectrum through 2010? Do you 
feel it has been successful in getting the wireless community to take 
Y2K seriously?
    Answer. Our actions in the September 1998 First Report and Order 
and Third Notice of Proposed Rulemaking, WT Docket No. 96-86, The 
Development of Operational, Technical and Spectrum Requirements For 
Meeting Federal, State and Local Public Safety Agency Communication 
Requirements Through the Year 2010 Establishment of Rules and 
Requirements For Priority Access Service (``First Report''), took 
significant steps toward resolving certain of the telecommunications 
challenges facing the public safety community, including, but not 
limited to, making available sufficient spectrum to take advantage of 
innovation in technology.
    Specifically, in the First Report, the Commission concluded that it 
is important to increase our efforts to alert the public safety 
communications community to the nature and seriousness of the Year 2000 
problem and to ascertain both the current state of Y2K readiness and 
the progress and range of compliance initiatives in that community. The 
Commission sought comment on how best to ascertain the extent, reach, 
and effectiveness of Year 2000 compliance initiatives that have been or 
are being undertaken by public safety entities, so that we can better 
understand the nature of the Year 2000 problem and the potential risks 
posed to public safety communications networks.
    I believe that the Commission was successful in raising the 
awareness of the Year 2000 Problem. For instance, nine of 23 formal 
commenters and three of 14 reply commenters addressed the Y2K issues 
for which we sought comment. The commenters include, the Association of 
Public-Safety Communications Officials-International, Inc. (``APCO''), 
the Federal Law Enforcement Wireless Users Group (``FLEWUG''), the 
International Association of Chiefs of Police (``IACP''), Joint 
Comments of American Association of State Highway and Transportation 
Officials (``AASHTO''), Forestry Conservation Communications 
Association (``FCCA''), International Association of Fire Chiefs 
(``IAFC''), International Association of Fish and Wildlife Agencies 
(``IAFWA''), International Municipal Signal Association (``IMSA'') and 
National Association of State Foresters (``NASF'') (collectively, 
``Joint Commenters''), National Public Safety Telecommunications 
Council (``NPSTC''), Public Safety Wireless Network Program (``PSWN''), 
Motorola, Inc., the State of California, the State of Florida, and the 
National League of Cities and the City of San Francisco.
    These aforementioned commenters represent a significant cross-
section of the public safety wireless community and stated that they 
view the Y2K Problem as an important issue that can affect their 
operations. They generally stated that the Commission should continue 
its outreach effort and offered to assist the Commission to inform the 
community regarding the Y2K Problem. As an example, APCO, which reaches 
a majority of public safety users through its frequency coordination 
efforts, held a national Y2K symposium in Illinois on May 20-21, 1999 
in an effort to further educate users. FCC staff attended and 
summarized information the commenters provided in WT Docket No. 96-86 
regarding the Y2K matters, as well as summarized the FCC/Network 
Reliability and Interoperability Council's joint document ``Y2K 
Communications Sector Report.''

                                <all>

</pre></body></html>
